<html>
<title> - YEAR 2000 EMERGENCY MANAGEMENT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                     YEAR 2000 EMERGENCY MANAGEMENT

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 1999

                               __________

                           Serial No. 106-59

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
61-297                     WASHINGTON : 1999


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
    Bonnie Heald, Communications Director/Professional Staff Member
                Harrison Fox, Professional Staff Member
                          Mason Alinger, Clerk
                     Faith Weiss, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 1999...................................     1
Statement of:
    Heckler, Margaret, attorney at law, former Secretary, 
      Department of Health and Human Services; Michael Humphrey, 
      business director for telecommunications and information, 
      Public Technology, Inc.; James Morentz, president, 
      Essential Technologies, Inc.; Phyllis Mann, president-
      elect, International Association of Emergency Managers; and 
      Lawrence Gerschel, Lawrence and Alberta Gershcel Foundation    77
    Walker, Michael, Deputy Director, Federal Emergency 
      Management Agency, accompanied by Lacy Suiter, Associate 
      Director, Response and Recovery Directorate, Federal 
      Emergency Management Agency................................     5
Letters, statements, etc., submitted for the record by:
    Heckler, Margaret, attorney at law, former Secretary, 
      Department of Health and Human Services, prepared statement 
      of.........................................................    81
    Humphrey, Michael, business director for telecommunications 
      and information, Public Technology, Inc.:
        Guide to Y2K and You.....................................   157
        Prepared statement of....................................    90
    Mann, Phyllis, president-elect, International Association of 
      Emergency Managers, prepared statement of..................   115
    Morentz, James, president, Essential Technologies, Inc., 
      prepared statement of......................................   101
    Walker, Michael, Deputy Director, Federal Emergency 
      Management Agency:
        Guide for State and local emergency managers.............    22
        Prepared statement of....................................     7

 
                     YEAR 2000 EMERGENCY MANAGEMENT

                              ----------                              


                         MONDAY, MARCH 22, 1999

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Biggert, and Turner.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, director of communications, professional 
staff member; Harrison Fox, professional staff member; Mason 
Alinger, clerk; Kacey Baker and Richard Lukas, interns; Faith 
Weiss, minority counsel; and Jean Gosa, minority staff 
assistant.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will come to order.
    From hurricanes and earthquakes to nuclear accidents and 
Y2K computer meltdowns, disaster scenarios continue to provide 
a lucrative business for Hollywood movie makers. Most of us 
enjoy those disasters on the silver screen, but we don't expect 
them to occur in our backyard. When they do occur, the human 
tendency is to assume that they happen to someone else.
    History is replete with examples of ill-equipped regimes, 
cities, and business and governments experiencing natural and 
man-made disasters. Such lessons should promote preparedness; 
but, distressingly, fear of unknown consequences places 
citizens at the risk of either overreacting or not reacting at 
all.
    Fortunately, as we prepare to enter the new millennium, 
there is heightened awareness within the world, and 
specifically within Congress, of new man-made risks that must 
be considered in emergency planning. The possibility of 
widespread computer problems associated with the year 2000 is a 
concern. But it is only one concern among many.
    As a Nation, we must prepare for disasters of all types, 
man-made and natural. Unlike hurricanes and earthquakes, we 
know when the year 2000 problem will occur. Since 1996, there 
has been diligent work to prevent widespread disruption in our 
national infrastructure; however, the Social Security 
Administration began its work in 1989. It is unfortunate that 
neither the legislative branch nor the executive branch 
understood the complexity of the management issues involved.
    Since April 1996 when this Subcommittee on Government 
Management, Information, and Technology has held various 
investigations and been in the forefront of how those 
investigating citizens, private sector, and governments can 
best prepare for these emergencies, we have continued to prod 
Federal agencies to ready their computer systems for the year 
2000.
    As the most recent report card reflects, the Federal 
Government is working extremely hard to meet the unstoppable 
January 1st deadline. Some agencies have been highly 
successful. A few others lag behind. The year 2000 computer 
challenge, often called the millennium bug or Y2K, dates back 
to the 1960's and 1970's when computers were bulky in size but 
small in memory, and a few programmers had the bright idea, Why 
are we wasting all of this space by putting in ``1967,'' why 
don't we just put in ``67''; the first two digits are assumed 
to be 19.
    Unless corrected, these date-sensitive computer systems and 
microchips embedded in countless mechanical devices may 
misinterpret the 00 in 2000 as 1900. The fear is that this 
confusion may cause the systems to generate erroneous 
information, corrupt other systems or possibly shut down.
    While the Federal Government is moving ahead with its Y2K 
readiness, we remain concerned about State, local and 
international agencies, as well as businesses that exchange 
information with systems. Nearly all of us who have been 
closely monitoring this agree that the year 2000 won't cause a 
massive shutdown of the Nation's infrastructure, but there may 
be inconveniences, some of which could require an emergency 
response. Every citizen and resident of this Nation needs to 
know that if they need help, help will be available.
    Today we will hear from both public and private sector 
emergency management experts. We have asked them to report on 
the preparations that are underway for managing emergencies, 
concentrating on the response to the year 2000 computer problem 
and other recent concerns, such as biological and chemical 
threats.
    In addition to our distinguished panel of witnesses, 
immediately after today's hearing, four report groups will 
convene in workshops this afternoon and tomorrow morning.
    The first group will explore the role of technology in 
emergency management.
    A second group will identify the Y2K needs of citizens and 
emergency management response, specifically evaluating what 
needs to be in a year 2000 tool kit.
    A third group will sketch out a strategic emergency 
management plan focusing on key emergency management policy 
issues involving both public and private sectors.
    The fourth group will review the latest disaster 
information systems that could be used domestically and 
internationally.
    The workshop groups will report their conclusions at 11:30 
a.m. tomorrow morning in room 2203 of the Rayburn House Office 
building.
    Before we introduce the panel of witnesses, I yield time to 
the ranking minority member, Mr. Turner of Texas. And we 
appreciate you coming.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate the 
opportunity today to review the emergency management procedures 
with an emphasis, of course, on the Y2K problem. The hearing 
and the workshop format by which we are addressing these 
matters is unusual for the Congress, and I am interested in 
seeing how useful this approach will be for the participants as 
well as for the public.
    The focus of the workshop will include the review of two 
areas: emergency management in general--ranking from man-made 
occurrences to national disasters such as flooding and 
hurricanes--and the specific emergency management preparation 
for Y2K. Y2K presents some serious and unique challenges for 
this country, because we are technologically dependent.
    While there are those who will panic in reaction to 
potential Y2K problems, Americans generally are not prone to 
overreaction. And it is my hope that the mainstream media will 
maintain responsible journalism to avoid unnecessarily inciting 
panic or anxiety on the part of the American people.
    It should be comforting to learn that the Federal Emergency 
Management Agency [FEMA], has been actively engaged in 
preparing for the date change. FEMA has reached out actively 
to, among others, the State and local emergency managers. FEMA 
is also holding Y2K workshops in each of its 10 regional 
offices, and these workshops bring Federal representatives, 
State and local emergency managers, State fire marshals, and 
State Y2K coordinators to the table to discuss the unique 
challenges presented by Y2K.
    Governments are working hard to assure that they are 
prepared and there will be steps that individuals should take 
as well. People should check with the manufacturers of any 
essential computer-controlled equipment they use, prepare basic 
emergency supply kits and have a battery-operated radio and 
television available. This basic advice is not offered to scare 
people, but simply to ensure that they are prepared for any 
temporary problems which may occur. Some advice, though well-
intended, may actually create significant problems that 
otherwise would not exist.
    Unnecessary overreaction may well be our greatest potential 
obstacle on January 1, 2000. For example, advising people to 
fill their gas tanks on December 31st will cause a gas shortage 
on that day. Advising those who use prescription drugs to 
purchase a 3-month supply might also create artificial 
shortages, one which could most seriously harm those who are in 
need of prescription medications but are financially unable to 
purchase them in advance.
    We must strive to assure that legitimate concerns are 
addressed without causing undue fear and anxiety when 
commenting on Y2K readiness. This hearing should be helpful for 
Americans to learn what the Federal, State and local 
governments are doing to minimize any inconveniences due to 
Y2K.
    In closing, I would like to thank the witnesses and 
participants who have come here today. I look forward to 
hearing your opinions on emergency management, and I look 
forward to meeting the challenge of Y2K.
    Thank you, Mr. Chairman.
    Mr. Horn. I thank the gentleman for his excellent 
statement, and now yield to the vice chairman of the 
subcommittee, Mrs. Biggert of Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman. I too am pleased to 
participate in today's hearing on the emergency management 
challenge of the year 2000. As our witnesses I am sure know, 
today's hearing is one of a series of hearings on the Y2K 
issue. And the subcommittee has heard testimony from a variety 
of governmental departments and agencies as to their various 
level of preparedness for continued computer capacity in the 
new millennium.
    As prepared as the United States may be, situations are 
likely to arise during the year 2000 date change that we have 
not anticipated. Emergency management may be an essential 
component of our ability to deal well with these unexpected 
aspects of the new millennium. I am interested to hear today's 
testimony on the emergency management and our readiness for the 
challenges that we face.
    I will also be interested to review the results of the 
accompanying workshops related to today's hearings. Working 
groups will focus on the development of a Y2K tool kit for 
individuals and families, preparation for local governments and 
policy issues for both the public and private sector. I am 
pleased to see this emphasis on education and preparation for 
all sectors of our society. And I look forward to the testimony 
and accompanying materials to address each of these areas.
    Thank you again, Mr. Chairman, for your work in preparing 
this hearing.
    Mr. Horn. Thank you. I appreciate your thoughtful 
statement. Let me just note the procedure this morning. We have 
two panels. And we, by tradition of the full committee and the 
subcommittee, swear in all witnesses. And No. 3, the minute you 
are introduced, your statement is automatically made a part of 
the record, the full statement.
    We would appreciate it if you could summarize in your own 
words the statements so we would have more time for dialog and 
questioning.
    So with the first panel, we have Mr. Michael Walker, the 
Deputy Director, Federal Emergency Management Agency, otherwise 
known as FEMA, accompanied by Mr. Lacy Suiter, the Associate 
Director, Response and Recovery Directorate, Federal Emergency 
Management Agency.
    If you gentlemen, plus any assistants that are behind you 
that might comment, please have them all stand. We will have a 
massive baptism and swearing in at the time.
    Mr. Walker. Mr. Chairman, also Kay Goss, who is our 
Associate Director for Preparedness; Clay Hollister, our 
Associate Director for Information Technology, and Carrie 
Brown, our Fire Administrator.
    Mr. Horn. Thank you very much.
    [Witnesses sworn.]
    Mr. Horn. All five possible witnesses and actual ones have 
affirmed the oath.
    And we know you have a time schedule, Mr. Walker, and we 
are going to try to accommodate you. So you have got a lot of 
traveling today.
    Mr. Walker. Yes, sir.
    Mr. Horn. So please go ahead.

STATEMENT OF MICHAEL WALKER, DEPUTY DIRECTOR, FEDERAL EMERGENCY 
   MANAGEMENT AGENCY, ACCOMPANIED BY LACY SUITER, ASSOCIATE 
DIRECTOR, RESPONSE AND RECOVERY DIRECTORATE, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Walker. Mr. Chairman, thank you very much. And on 
behalf of FEMA's Director, James Lee Witt, I want to thank you 
for inviting us to participate in these hearings.
    Mr. Chairman, a great deal of progress has been made on Y2K 
and progress is being made every day. As Mr. Turner points out, 
we are holding 10 regional workshops around the country, in 
fact, we will be leaving here to fly to the West Coast for the 
last 3.
    In those workshops, Mr. Chairman, we're finding that 
awareness is growing, and that more is being done to prepare 
for Y2K than frankly we had expected to find when the workshops 
began. So it is important to say the sky is not falling because 
of Y2K. We are in agreement with the assessment that Y2K should 
not result in major disruptions in America's basic 
infrastructure.
    Of course, there is so much hype and misleading information 
on Y2K these days, it is very difficult for the American people 
to sort fact from fiction. There are those who seek to scare 
people or profiteer from Y2K; others who bury their heads and 
risk a ``wait and see'' attitude; and still others who fear 
panic and downplay the whole thing. All of those approaches are 
wrong. They mislead the American people.
    To those who are afraid, let us assure them, there's no 
need for horror. There is no need to take money out of banks. 
There is no need to head for the hills. In fact, those kind of 
extreme reactions could actually cause a disaster that 
otherwise would not happen.
    To those who would wait and see or those who are 
downplaying Y2K, let us say, Y2K does not fix itself. Let us 
remind them that fixing Y2K is about leadership. It is about 
taking responsibility. And it is not too late. The biggest 
challenges are in the small business sector and in smaller 
towns and counties.
    I am from a small town, myself, in Tennessee, and I 
understand how difficult it is to scrape up the money to make 
infrastructure investments on the local level. But I also know 
that failure to fix Y2K will cost communities and businesses 
much more later on and, at the same time, endanger the well-
being of American families. Of course, no one believes that 
every computer will be reprogrammed or every date-sensitive 
embedded computer chip found and replaced by the end of the 
year.
    So while we do not now expect major dislocations, the 
emergency management community is preparing to deal with the 
potential consequences of localized disruptions. And I would 
emphasize that where those disruptions occur will depend 
entirely on where the Y2K problem has been fixed and where it 
has not. So local leaders must wait no longer to assess their 
communities' Y2K compliance and fix their critical systems.
    The truth is, Mr. Chairman, the Y2K challenge pales besides 
the great challenges Americans have faced and conquered 
throughout our history. So I commend this committee for helping 
to get the word out that, while progress is being made, the job 
is not complete and that we must fix Y2K where it has not yet 
been fixed, and that all of us share in the responsibility not 
to wring our hands, but to fix the problem and rise to the 
occasion as Americans have throughout our history.
    Thank you, Mr. Chairman, we look forward to your questions.
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.001
    
    [GRAPHIC] [TIFF OMITTED] T1297.002
    
    [GRAPHIC] [TIFF OMITTED] T1297.003
    
    [GRAPHIC] [TIFF OMITTED] T1297.004
    
    [GRAPHIC] [TIFF OMITTED] T1297.005
    
    [GRAPHIC] [TIFF OMITTED] T1297.006
    
    [GRAPHIC] [TIFF OMITTED] T1297.007
    
    [GRAPHIC] [TIFF OMITTED] T1297.008
    
    Mr. Horn. Thank you. I will yield my time to Mrs. Biggert, 
the vice chairman of the subcommittee. Mrs. Biggert, the 
gentlewoman from Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Mr. Walker, you said that there was a wide disparity of 
readiness in general. What about the emergency service systems 
at the county and municipality level; is this just indicative 
of the Y2K problem, or is this something that's indicative of 
just emergency readiness in general?
    Mr. Walker. Well, Congresswoman, the emergency management 
system at every level of the country has improved substantially 
in the past several years. Director Witt has made a great 
effort to work with the States, and the States working with 
local communities to improve emergency management.
    I remember when I was first growing up in Tennessee, 
emergency management in the fifties during all the floods was 
essentially neighbor to neighbor.
    Well now we have, thanks to this fellow next to me, Lacy 
Suiter--who was the emergency manager for many years in 
Tennessee before he came to Washington--a very professional 
emergency management system at every level. We're finding that 
every level of government is greatly improved from where it 
used to be, but, of course, just like any other institution, it 
differs from place to place.
    Mrs. Biggert. Are there special--is there special attention 
to 911 or any of those emergency systems of what will happen?
    Mr. Walker. Well, with regard to 911 specifically, there 
are 4,300 911 systems in the country. Through the Fire 
Administration, we have conducted a survey of 911 systems 
participating with the National Emergency Number Association. 
What we're finding is we're beginning to get responses back 
from those requests, and we're finding that work still needs to 
be done in some of the areas. So we're going back out and 
resurveying the 911 systems, quite frankly, as an effort to 
remind them that they must get on with the job.
    Mrs. Biggert. What then about the fire departments? Is this 
something--is there a way to communicate media crisis 
information to and from these fire departments?
    Mr. Walker. Oh, yes. We have already been in touch with 
32,000 fire departments around the country, and they're hard at 
work at making their systems compliant. And we feel very 
confident that the vast majority of fire departments will be 
Y2K compliant.
    Mrs. Biggert. Are there some that are holding out on this?
    Mr. Walker. It is like I said in my opening statement, it 
is a bigger challenge in smaller towns and communities, in 
large part because it costs money. And I found out over the 
weekend, for instance, that the neighboring town to mine in 
Tennessee just found out they're going to have to spend 
$200,000. That is a lot money for a small town.
    Mrs. Biggert. All right. Then do you think that the 
established channels of the communication between the Federal 
Government, the State and the local government are sufficient?
    Mr. Walker. I do. And Lacy might want to comment on that.
    Mr. Suiter. Certainly between the Federal Government and 
the State government, there are a number of independent systems 
which are not dependent upon the normal telephone switch 
networks to communicate with them. With the National Warning 
System, we can talk to every State all at the same time on one 
of the world's largest party lines, if you will, and get 
information back the other way. And that goes to about 2,000 
different communities all across the country, also in the 
larger communities, as well as other warning points around the 
country.
    And then there are the side band HF radios that are in 
place--there's any number of redundant communications to the 
States. Many States have far superior communications with their 
local governments than even the Federal Government does. Those 
are currently all going through an evaluation process, which we 
will have some information by the end of April, by April 26th 
actually.
    Mrs. Biggert. Who really--who is responsible really for 
developing these communications, the Federal Government or the 
States or the locals?
    Mr. Suiter. Between the Federal Government and the State 
government, obviously FEMA and the different Federal agencies 
that are involved have different communication systems. FEMA 
itself has the national emergency systems which connect the 
President with the Governors and the different State agencies 
that have emergency responsibilities in it. Between the State 
government and the local government, it is obviously up to the 
States to set up whatever type of system they have, and it is 
different all across the country.
    If you go to the State of Arkansas, there's a rather major 
800 megahertz system that connects all of the major services 
together. Different States have different systems. Some of them 
are satellite driven, such as in California and in Florida.
    Mrs. Biggert. What would be FEMA's top priorities for 
ensuring maximum community and individual citizen awareness and 
readiness to cope with potential problems posed by the Y2K 
phenomenon?
    Mr. Walker. As we sit here today, our top priority is to 
get the word out in those communities and businesses that have 
not yet fixed the problem, to fix the problem. That is the No. 
1 thing. We still have 9 months left in the year. Nothing about 
Y2K is preordained except the date. We know what the problem 
is, we know how to fix it. It is a matter of leadership and 
taking the action to do so.
    Mrs. Biggert. And how are we going to ensure that within 9 
months--some of these people are going to have problems, aren't 
they?
    Mr. Walker. Well, as I said in my opening statement, we--
everyone knows that every computer won't be reprogrammed and 
every embedded chip is not going to be found by the end of the 
year. So that's why we are preparing for what could be 
localized disruptions in various communities that frankly just 
don't make the investments in time.
    Mrs. Biggert. As I was coming over here today, there was--
just caught a snippet on the news--one of the schools had a 
fifth grader in their school that they wanted to hire to fix 
their Y2K problem, because he was the genius of the school that 
was going to be able to do this. And it was a big thing with 
the school board about whether they should pay him those big 
bucks that some of these other people are getting.
    Mr. Walker. I have a nephew like that, I understand.
    Mrs. Biggert. So I think sometimes people are waiting for 
that one person that's going to come up to be able to solve 
this whole problem. And I think we have found that probably 
isn't true.
    Mr. Walker. It just takes hard work. It is tedious work, 
but it is work that can be done.
    Mrs. Biggert. Thank you. Thank you, Mr. Chairman.
    Mr. Horn. You're welcome.
    I now yield 6 minutes to the ranking member, Mr. Turner of 
Texas, for the purpose of questioning.
    Mr. Turner. Mr. Walker, what do we know about the status of 
our electrical power companies? I mean, it seems to me that 
could be the greatest problem if we have power failures. In my 
own State, I know Texas Utilities has been quite diligent to be 
sure they are ready for 2000. What's your impression of the 
state of readiness?
    Mr. Walker. In fact, with regard to Texas, I just read on 
the way over here a statement from the Texas Utility Board, I 
think they released over the weekend, saying they were 
confident that electric power and telecommunications, et 
cetera, would be in good shape in Texas. With regard to the 
electric power grids, we agree with the assessment that a great 
deal of work has been done, and that there is not an 
expectation at this point that there will be any kind of 
widespread electrical power problem.
    As you know, the President's Council on Y2K is divided up 
into 25 major sectors. FEMA chairs the emergency services 
sector, the Department of Energy chairs the energy sector, and 
they've been doing a great deal of work through the North 
American Electrical Liability Council. And all of their 
findings, by the way, are posted on the web of the Council. So 
we believe that the national structures are in good shape.
    I would note that the Senate committee pointed out that 
there could be problems in rural areas like rural electric 
cooperatives. I know in my home when there's an ice storm, they 
often go down, a little bit longer than others. NAERC has 
released a statement since that report came out saying that 
they are--they're staying in touch with their members, there 
are a thousand of them, and they're working hard to get 
compliance and they believe they're on track.
    Mr. Turner. Would you describe for me what the general--or 
generally describe the kind of problem that power companies are 
having to prepare for? Where is the weak link in the power grid 
that causes them to have a Y2K problem?
    Mr. Walker. Well, according to what the assessment is from 
NAERC, there appears to be no weak link in the national power 
grid at the present time. But I am not an expert on that. I 
would have to refer you to the Council for specifics.
    Mr. Turner. I have a great deal of concern. I would be 
interested in your assessment of what you have sensed the 
public reaction is to Y2K, because I fear--my greatest fear is 
that we will overreact.
    Mr. Walker. Yes, sir.
    Mr. Turner. I was at home this weekend. Visiting with my 
dad, and he just happened to mention that he checked into the 
price of generators and that the one with the electric starter 
was $2,600, but you can get one for $900 if you are willing to 
crank it. But at his age, he said, ``I don't know if I can pull 
the cord on it to start it.'' And I was a little bit surprised, 
and I said, ``Dad, I don't really think you need to be worrying 
about buying an electric generator. And, you know, from my 
perspective, I really feel that way,'' and yet my own dad was 
out there pricing generators.
    So give me--you know, you have been traveling around, you 
have been to these workshops--do you sense a growing panic out 
there? Are we doing pretty good?
    Mr. Walker. The problem is there's so much misinformation 
and hype about Y2K. There are people who are really scaring 
people or trying to profiteer from it. There are people, on the 
other hand, who just wish it would go away, because they're 
afraid of panic. And then there are others who are saying, 
Well, you know, I don't know if it is going to affect me, so I 
am going to wait to see. All of those approaches miss the mark.
    So I think it is very important that we continue the effort 
that we're engaged in and that this committee is engaged in, in 
getting the word out to the lowest level of government in the 
country and to every community that, No. 1, there's no need to 
head for the hills, that the national structures are in good 
shape, that most communities are doing what they need to do. 
But in those that are not, we would encourage citizens to begin 
asking the question of their local leaders, What are you doing, 
and are you going to be Y2K compliant? That will help 
immensely.
    Mr. Turner. I understand the problem you described, talk 
about embedded chips, and the problem that we may not find all 
of those problems, and they may be out there. But it just seems 
to me that the bigger problems, the problem of loss of electric 
power, that those seem to be becoming fairly remote as 
possibilities based upon what the power companies are doing.
    Mr. Walker. That's correct.
    Mr. Turner. I really have never had a discussion with 
anybody in that industry to know. But it would seem to me if 
there was even a disruption that it would be able to be 
remedied fairly quickly. In my hometown, I am from a rural 
area, as you are, we're accustomed to having occasional power 
disruptions, and you might lose the meat frozen in your 
freezer, but that's about the extent of it. It seems to me that 
most of those problems could be very well overstated.
    Mr. Walker. Yes, sir. I agree, Mr. Turner. I mean we have 
that happen every year. We just had an ice storm in Tennessee. 
We had ice storms all over the country and power has gone off 
for a few hours or a few days, and the companies have responded 
just like they would in any crisis, and got the power back on.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Horn. I thank you. I also grew up in a rural area, and 
I agree on some of these things that we're talking about.
    I think, Mr. Walker, when you and I chatted a week or so 
ago, I mentioned the problem of frequencies in Los Angeles 
County. We have 81 cities there, a county of 10 million people, 
the largest city being the city of Los Angeles, 3 of the 10 
million. I happen to live in the second largest city there, 
which is about 450,000, half a million. And when I was at the 
university, California State University at Long Beach, we had 
our own police force, all the rest. And when we engaged in 
these exercises, all the channels were jammed; when you have 
got 81 cities, the sheriff, all sorts of National Guard, 
Reserves, so forth.
    What does FEMA know about our vast urban areas and the 
ability to communicate? Are they going to be jammed up again, 
be it riot, earthquake, in our case; fire, flood also in our 
case, and so forth; what can you tell us about that?
    Mr. Suiter. Yes. First of all, Ellis Stanley, who is the 
director for the city of Los Angeles is with us today and could 
probably explain more to you about the details of how the city 
of Los Angeles operates, if anybody can.
    Mr. Horn. OK. We will swear him in.
    Mr. Suiter. And I would strongly suggest you seek his 
advice. Basically, since last July, we have been working with 
the different Federal agencies to make sure that the 
information that we were passing on to the Governors in this 
country was reasonably accurate. Information about such things 
as the power grids, the national communications structure, the 
fact that the Federal Government itself, in terms of its 
emergency systems, would be working and the problems we have 
would be corrected.
    We have been spending a great deal of time getting that 
done. We have been convening all the Federal agencies in the 
Catastrophic Disaster Response Group, which is part the Federal 
Response Plan. And defines how the President will manage a 
potential disaster declaration. We're in the process right now 
of preparing an operations supplement to that response plan 
that will say what the Federal Government will do in response 
to specific requests from the Governors.
    We're just about to the end of the 10 regional meetings. As 
Mr. Walker has indicated, he will be attending the last of 
these meetings this week. When we get to the end of that, our 
regions will be giving us a specific assessment, State by 
State, which is due in to the director by the end of about the 
26th, I believe it is, of April. And from that, more 
information will be compiled and put together so that we will 
have better information, as an example, of what Mr. Stanley is 
doing in Los Angeles and the specifics of how all of this is 
working together.
    We hope that as a result of all of this, we are planning 
for a non-event in the process that would come out, and if it 
is a non-event, at least it is an event that will have an 
appropriate reaction and not an overreaction on the part of the 
public to those things that are concerned.
    In New England, last year where we had the major ice storms 
and we lost major transmission lines and people went without 
power for 2 or 3 days and it--most communities, I mean there's 
been a great deal of change in the United States since the turn 
of the century. Since the turn of the century, a hurricane came 
to shore in Galveston, TX and killed 6,000 people. It doesn't 
happen anymore.
    That isn't necessarily because the Federal Government or 
the State government did anything; it happened because the 
local government communities and their acceptance of the 
responsibility of what they have to do to prepare their people. 
That's where all of this occurs first. And that's who owns the 
disaster.
    I would suggest to you, sir, that local community 
acceptance and responsibility is going on in the country right 
now. I may not be as easily reportable at this stage as we 
would like, but in another 30 days we will have a better feel 
for that level of preparedness. And I think we're going to see 
a great deal of improvement over the next 30 to 45 days or at 
least in terms of identifying more specifically for us at the 
Federal Government what the requirements might be.
    Mr. Horn. Does FEMA have a satellite at all that's 
dedicated to its ability to send messages throughout the United 
States?
    Mr. Suiter. The answer is yes.
    Mr. Horn. Is it strictly for the use of FEMA or is it 
shared? Just identify yourself. Sit down and make yourself at 
home. There's an extra chair. This is just family folks.
    Mr. Hollister. Yes, sir. Clay Hollister, FEMA Chief 
Information Officer. Yes, we do. We have what we call the FEMA 
switch network, which is a voice and a data network, which we 
manage, full period lease circuits, including one satellite 
transponder. And we manage all of our own switches, and that's 
our primary source of communications. And we do have that 
available. For disasters, we use it all the time.
    Mr. Horn. Could that satellite be blocked by either a 
foreign power or somebody in the United States so the 
communications wouldn't reach the ground?
    Mr. Hollister. Congressman, I don't know whether that could 
be jammed. I really don't know the answer to that.
    Mr. Horn. Could we get the answer and put it at this point 
in the record?
    Mr. Hollister. Yes, sir, I will get it for you.
    Mr. Horn. Without objection, it will be put at this point 
in the record.
    I think you ought to have a satellite. I think we ought to 
have a number of alternative means so the Federal Government 
can communicate, as well as some of the State governments, like 
California with 33 million people or so, would pay if they 
could communicate with the cities in California particularly, 
since we're so earthquake prone and not just not fire prone. We 
have got enough of those every year, and not just flood prone.
    I've got the largest flood control problem in the country 
in the Los Angeles River alone, with 500,000 people affected in 
the floodplain, as FEMA knows. And FEMA has been very helpful 
to get us through this thing, slowly but surely. Two more 
years, we think the levies will be up, and you will release the 
insurance that we're going through right now and then that will 
make my constituents very happy. And five other members' 
constituents, I might add.
    So what about other means of communication?
    Mr. Hollister. We also have the FTS system, Federal 
Telecommunications System. And we have the public switch 
network.
    Mr. Horn. But that FTS system, does it have its own systems 
throughout the country?
    Mr. Hollister. Yes, they're managed by dedicated vendors 
who manage the switches, as well as the dedicated lines. So 
that's another fallback. And the third, at least in terms of 
voice, is the public switch network itself, which we can go out 
commercially and communicate. We also have HF radio, which 
communicates. We have a FEMA-HF system, which is there as well. 
And we have satellite phones which we use in disasters, which 
we are going to certainly place at each of other regional 
offices.
    Beyond that, we had made--we are looking at the possibility 
of putting satellite phones in each State emergency operation 
center as another alternative. We proposed that, and we're 
waiting to see whether the requirement is still valid for that 
in the fall based on what we know.
    And, finally, Mr. Suiter referred to it, we also have the 
National Warning System or NWS, which is a two-way 1,500 drop 
communication system between FEMA, the regions in each State, 
ERC, so we have a quite robust voice connectivity, sir.
    Mr. Horn. Well, getting back to that satellite, and any 
satellite, what does the Defense Department tell you about the 
ability of other types of satellites to put a beam into that 
satellite and just mar it from ever transmitting messages?
    Mr. Hollister. Well, I would have to answer that for the 
record, sir.
    I would have to go back to DOD on that. It is a commercial 
transponder. We lease it from a commercial vendor. It is one of 
the standard voice transponders up there.
    Mr. Horn. Do you have full use of it?
    Mr. Hollister. Yes, sir, we do.
    Mr. Horn. OK. That's good news.
    Mr. Hollister. Yes, sir.
    Mr. Horn. Mr. Turner, do you have any other questions?
    Mr. Turner. No other questions, Mr. Chairman.
    Mr. Horn. Mrs. Biggert, do you have any other questions?
    Mrs. Biggert. First of all, just a comment. You might have 
floods and earthquakes, but in Illinois we have sometimes 
below-zero weather. And if we don't have the electricity and 
the heat, it will cause quite a problem, even without any of 
those national--or natural disasters. So I think in all parts 
of the country, it is certainly a problem.
    Just one other. You have copies of a planning guide----
    Mr. Walker. Yes, we do.
    Mrs. Biggert [continuing]. Entitled what, Contingency and 
Consequence Management Planning?
    Mr. Walker. Right. A Guide for State and Local Emergency 
Managers. We brought extra copies today for the committee.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.009
    
    [GRAPHIC] [TIFF OMITTED] T1297.010
    
    [GRAPHIC] [TIFF OMITTED] T1297.011
    
    [GRAPHIC] [TIFF OMITTED] T1297.012
    
    [GRAPHIC] [TIFF OMITTED] T1297.013
    
    [GRAPHIC] [TIFF OMITTED] T1297.014
    
    [GRAPHIC] [TIFF OMITTED] T1297.015
    
    [GRAPHIC] [TIFF OMITTED] T1297.016
    
    [GRAPHIC] [TIFF OMITTED] T1297.017
    
    [GRAPHIC] [TIFF OMITTED] T1297.018
    
    [GRAPHIC] [TIFF OMITTED] T1297.019
    
    [GRAPHIC] [TIFF OMITTED] T1297.020
    
    [GRAPHIC] [TIFF OMITTED] T1297.021
    
    [GRAPHIC] [TIFF OMITTED] T1297.022
    
    [GRAPHIC] [TIFF OMITTED] T1297.023
    
    [GRAPHIC] [TIFF OMITTED] T1297.024
    
    [GRAPHIC] [TIFF OMITTED] T1297.025
    
    [GRAPHIC] [TIFF OMITTED] T1297.026
    
    [GRAPHIC] [TIFF OMITTED] T1297.027
    
    [GRAPHIC] [TIFF OMITTED] T1297.028
    
    [GRAPHIC] [TIFF OMITTED] T1297.029
    
    [GRAPHIC] [TIFF OMITTED] T1297.030
    
    [GRAPHIC] [TIFF OMITTED] T1297.031
    
    [GRAPHIC] [TIFF OMITTED] T1297.032
    
    [GRAPHIC] [TIFF OMITTED] T1297.033
    
    [GRAPHIC] [TIFF OMITTED] T1297.034
    
    [GRAPHIC] [TIFF OMITTED] T1297.035
    
    [GRAPHIC] [TIFF OMITTED] T1297.036
    
    [GRAPHIC] [TIFF OMITTED] T1297.037
    
    [GRAPHIC] [TIFF OMITTED] T1297.038
    
    [GRAPHIC] [TIFF OMITTED] T1297.039
    
    [GRAPHIC] [TIFF OMITTED] T1297.040
    
    [GRAPHIC] [TIFF OMITTED] T1297.041
    
    [GRAPHIC] [TIFF OMITTED] T1297.042
    
    [GRAPHIC] [TIFF OMITTED] T1297.043
    
    [GRAPHIC] [TIFF OMITTED] T1297.044
    
    [GRAPHIC] [TIFF OMITTED] T1297.045
    
    [GRAPHIC] [TIFF OMITTED] T1297.046
    
    [GRAPHIC] [TIFF OMITTED] T1297.047
    
    [GRAPHIC] [TIFF OMITTED] T1297.048
    
    [GRAPHIC] [TIFF OMITTED] T1297.049
    
    [GRAPHIC] [TIFF OMITTED] T1297.050
    
    [GRAPHIC] [TIFF OMITTED] T1297.051
    
    [GRAPHIC] [TIFF OMITTED] T1297.052
    
    [GRAPHIC] [TIFF OMITTED] T1297.053
    
    [GRAPHIC] [TIFF OMITTED] T1297.054
    
    [GRAPHIC] [TIFF OMITTED] T1297.055
    
    [GRAPHIC] [TIFF OMITTED] T1297.056
    
    [GRAPHIC] [TIFF OMITTED] T1297.057
    
    [GRAPHIC] [TIFF OMITTED] T1297.058
    
    [GRAPHIC] [TIFF OMITTED] T1297.059
    
    [GRAPHIC] [TIFF OMITTED] T1297.060
    
    [GRAPHIC] [TIFF OMITTED] T1297.061
    
    Mrs. Biggert. Right. And this is for State and local 
emergency managers so that they can see how--kind of judge how 
far along they are in their planning?
    Mr. Walker. Yes, ma'am.
    Mrs. Biggert. Here we have issued report cards to the 
Federal agencies. Is there anything that you might plan to do 
that with the State and local governments?
    Mr. Walker. Congresswoman, there are 87,000 units of local 
government in this country. On top of that, there are another 
200,000 water districts. That might be a little more difficult 
than 37 departments and agencies.
    Mrs. Biggert. Probably so. But I think, though, that 
knowing that somebody is kind of looking to see the progress 
helps to move people along.
    Mr. Walker. Yes. And the State emergency management 
officials are doing just that. They're working hard to stay in 
touch with their local communities.
    Mrs. Biggert. OK. Thank you very much.
    Mr. Walker. Thank you.
    Mr. Horn. Let me add to that. The problem of small cities 
that you and I grew up in, small towns--and we're trying to get 
at this, and if the other body will help us with it, it will be 
done--and that is provide some incentive from the Federal 
Government in either loans or grants, or a combination thereof, 
to get their water facilities up to speed both environmentally 
and simply for the basic case of emergencies.
    Does FEMA have any input when the administration is 
circulating legislation like that around the executive branch?
    Mr. Walker. EPA is a member of the Federal response plan 
and they're responsible, of course, for the sector under the 
Y2K Council. It will be more appropriate for EPA. They would be 
doing it for the Federal response plan.
    Mr. Horn. Well, what I am thinking of--terrorism. I am 
thinking of what can be put in the water supply. It seems to me 
FEMA has a major role that they're not going to look at the 
environment. That's fine.
    Mr. Walker. Yes, sir. FEMA coordinates 27 Federal 
departments and agencies under the Federal response plan, 
including EPA, but EPA is the lead agency for all of that, that 
you just referred.
    Mr. Horn. Including environmental terrorism?
    Mr. Walker. Yes. Yes, sir.
    Mr. Horn. OK. Well, we will deal with them in my other hat 
too, which is being on the Subcommittee on Environment and 
Water Resources.
    Mr. Walker. Yes, sir.
    Mr. Horn. OK. Let's see here. On current research and 
development efforts related to emergency management, are there 
any programs you have with universities or other State 
emergency groups that might well have done some things maybe 
the Federal Government hasn't done, and it is a good idea and 
maybe we ought to do it? How is that working?
    Mr. Walker. I would like to refer you to Kay Goss, our 
Associate Director for Preparedness. Her office has 
responsibility for just that work you described.
    Ms. Goss. We have a higher education project in which we're 
making an effort to get a degree program or at least a 
certification program in emergency management offered in every 
State. And I am very happy to report that we have all but 18 
States involved in that right now. Also Director Witt has a 
fairly elaborate program through our Project Impact, working 
with institutions of higher ed and their research centers in 
making them disaster resistant, to protect the resources that 
they have such as libraries or their research centers.
    Mr. Horn. Are there curricula developed, and perhaps FEMA 
has help for this, in emergency management where you have 
pulled together the best examples nationwide; or are there 
books that professors and, say, public administration have 
written on their own? What can you tell us about that?
    Mr. Goss. Higher ed institutions have done that, as well as 
our Emergency Management Institute in Emmitsburg, MD. And I am 
really glad you asked about best practices, because the 
Preparedness Directorate now for the 4th year has published a 
volume of exemplary practices in emergency management. Mostly 
they are low-cost or no-cost programs at the local level that 
can be replicated nationwide.
    Mr. Horn. Is that printed through the Government Printing 
Office?
    Mr. Walker. Yes, it is.
    Mr. Horn. So it is available to the public?
    Mr. Goss. Yes, it is.
    Mr. Horn. Can it be downloaded from any computer system?
    Mr. Goss. Yes, it is on our website as well. Yes, sir.
    Mr. Horn. So if they punch the right button, they can find 
all of your wisdom on emergency management?
    Mr. Goss. Yes, right.
    Mr. Horn. Good, I think that's great.
    Mr. Goss. Thank you.
    Mr. Horn. Well, that's all the questions I have. And we 
thank you and your team for coming up here. And we wish you 
well in these regional meetings.
    Mr. Walker. Mr. Chairman, thank you very much. If I might 
add something to Congresswoman Biggert, you point out very well 
that you know you can have a flood or a hurricane or an ice 
storm any day of the week. What we hope is that the American 
people take to heart that they need to be prepared for 
everything. They need to be prepared for that ice storm or 
whatever and to take care of their families on a daily basis. 
So thank you for mentioning that.
    Thank you, Mr. Chairman.
    Mr. Horn. All right. With that, we wish you well and we 
will call the next panel. Thank you for coming.
    Mr. Walker. Thank you.
    Mr. Horn. Panel two has the Honorable Margaret Heckler, now 
attorney at law, former Secretary of the Department of Health 
and Human Services; Mr. Michael Humphrey, the business director 
for Telecommunications and Information of Public Technology, 
Inc.; Dr. James Morentz, the president of Essential 
Technologies, Inc.; and Ms. Phyllis Mann, the president-elect, 
International Association of Emergency Managers.
    Are there any assistants or anything that you might be 
calling on, because we will get them all. It is like the 
Pentagon. When they show up, there's usually a battalion. So I 
just want to get them all sworn in at once. So you're it, 
right? Lawrence Gerschel, and you're with the Lawerence and 
Alberta Gerschel Foundation. Why don't you just join Ms. 
Heckler there? If you will stand and raise your right hands.
    [Witneses sworn.]
    Mr. Horn. The clerk will note that all five witnesses have 
affirmed that oath and we will begin with Ms. Heckler. We thank 
you for coming and sharing your ideas with us.

    STATEMENTS OF MARGARET HECKLER, ATTORNEY AT LAW, FORMER 
  SECRETARY, DEPARTMENT OF HEALTH AND HUMAN SERVICES; MICHAEL 
    HUMPHREY, BUSINESS DIRECTOR FOR TELECOMMUNICATIONS AND 
INFORMATION, PUBLIC TECHNOLOGY, INC.; JAMES MORENTZ, PRESIDENT, 
 ESSENTIAL TECHNOLOGIES, INC.; PHYLLIS MANN, PRESIDENT-ELECT, 
 INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS; AND LAWRENCE 
       GERSCHEL, LAWRENCE AND ALBERTA GERSHCEL FOUNDATION

    Ms. Heckler. Thank you so very much, Mr. Chairman and 
members of the committee. I have a sense of deja vu sitting 
here, because as a new member of the House of Representatives 
in 1967, under Chairman Jack Brooks, this was my first 
committee assignment. Many years have passed; hopefully some 
knowledge has been gained.
    Mr. Chairman, I want to thank you so much for sponsoring 
this hearing, for holding this the hearing. I want to express 
my own appreciation to FEMA for the leadership that they are 
providing to the problems that we are dealing with today. And I 
am here today particularly because of my former service as 
Secretary of Health and Human Services, because I think that 
the millennium bug Y2K and its ramifications deserve special 
attention as this problem pertains to the question of health 
care in America.
    The state of the medical institutions in terms of 
preparedness really, I think, mirrors the state of the public 
and private sector. Some institutions have completed their 
evaluations, and remediations and are in the final stages of 
testing. Others have elected to do nothing. The larger private 
institutions have, to a great extent, been able to drive their 
health care systems into some semblance of readiness, although 
the majority are behind schedule and overbudget.
    In general, the level of readiness of the outlying 
facilities, especially the municipal and county hospitals, lags 
behind the larger private hospital groups and health care 
systems. The unique environment of medical facilities, coupled 
with the extraordinary variety of procedures, operations, 
administration hardware, all of this makes the problem in 
health care more complex than in other industries.
    The problem is compounded by the fact that failure of these 
systems does not just involve an economic risk, but really a 
risk to life, to the welfare of the patients involved.
    The repercussions of these problems will undoubtedly be 
litigated over the course of many years in the future. Yet the 
effect of the loss of a single loved one will be felt a 
lifetime. We are dealing with human life. And in a limited 
examination of human health care systems I have been involved 
with, some patterns have emerged which could assist other 
health care institutions in their efforts to resolve these 
problems.
    It is quite clear that many of the larger, hospital-based 
health care systems have recognized the enormity of the 
challenge and have sought the very best available assistance 
and shared information among themselves. These institutions 
have established their own websites, have posted the results of 
their internal testing of the hardware of the various 
departments, and this sharing of information has gone on on an 
informal basis.
    However, it should be recognized that searching the 
Internet for sites with information on any subject is not an 
easy task. It is very time-consuming, very arduous. The current 
search engine architecture is really based on data bases which 
report out on printed material, rather than on webpages. We 
feel very strongly and recommend to the committee that the 
committee ask the Congress to establish a super health care 
website.
    The point of this is to create a repository of the results 
of the 500 best medical centers across the country, which could 
then serve as a resource, not only for medical centers of their 
size, but for all health care facilities. The administration of 
this site should be supervised by, for example, an NIH, FDA, 
another organization chosen by the secretary of Health and 
Human Services, but what we really need is the accurate and 
faithful transfer of information.
    We recognize that this site must not assume any liabilities 
or make any guarantee, but it would serve as a focal point, one 
single focal point on the Internet easily accessible to all 
health care providers and patients. The maintenance of this, 
which might be the Y2K Medical Internet Library, should be 
undertaken by a world class Internet systems integrator and 
maintained on a constant and continuous basis.
    This would allow all health care professionals the benefit 
of reviewing, with a high level of confidence, the work and the 
results carried out at many other institutions, and will avoid 
their having to painstakingly review each website looking for 
answers on even a specific piece of technology. It is clear 
that the formal collecting and posting of these results is 
designed to accelerate the process of driving the health care 
system into compliance, making it easier for the smaller 
providers and rural hospitals, community hospitals, those that 
have more difficulties.
    And it will mitigate and reduce the costs of the whole 
system and of the process for everyone involved. It will have 
the advantage of making the rural, county, innercity, public-
private health care providers share in all of the latest 
breakthroughs and information.
    It is important to realize that while we are planning for 
success, that there will be some failures in the health care 
industry. And I think, just statistically, we can expect that. 
Some of these may be foreseeable, but because of the enormity 
and complexity of the problem, it is imperative that an 
emergency planning process in health care be started 
immediately. Planning for future failures must occur, or we 
will have failed to plan because there will be inadequacies; 
which is not to suggest that we have become filled with anxiety 
and panic, but let us calmly look at the best practices and 
take action now.
    The likelihood of system failures is increased because of 
the interconnectivity of the data flow. One health care 
facility did unknowingly cause another to fail by transmitting 
corrupted data. This data may cause the system and an 
institution to crash. Despite the fact that the data base and 
software is compliant. Such a situation could occur, for 
example, if a nursing home with limited resources would 
transmit corrupted data to a primary care institution, to the 
hospital taking care of the patient.
    This data could cause the hospital system to freeze, or 
worse yet, lead to misinterpretation which could lead to an 
inappropriate treatment plan and with potentially fatal 
results.
    Because we live in a complex, multifaceted environment, it 
is important that we consider the possibility that the current 
resources for health care may be additionally stressed by a 
number of natural disasters such as have been discussed this 
morning, or by failures in other industries such as the power 
industry; and if they fail to remediate their systems, it is 
important to realize that a substantial amount of health care 
services are rendered by county and municipal hospitals, for 
whom the problem of compliance not only is complicated by the 
lack of funds but, at this point, lack of time.
    It is therefore very important that we develop a national 
plan for response to possible regional failures of the health 
care system. This plan should rely upon the expertise and 
capabilities of government's own systems and have available the 
military hospitals as well as the assistance of major medical 
centers, possibly the Veterans Administration Hospitals.
    In terms of impact economically, there are two levels of 
concern. The first is the price of bringing health care into 
compliance in a given timeframe. And in the face of ever-
increasing health care costs, there's no doubt that the costs 
of improving and correcting the year 2000 Y2K problem for 
health care will run into billions of dollars. It is estimated 
that the majority of health care product suppliers alone, not 
service suppliers, will spend on an average more than $1\1/2\ 
million each to simply deal with the issues of compliance in 
their own companies.
    This is money which in the aggregate represents $2 billion 
and which will not be spent on a new products, on new services. 
These costs do not take into consideration the costs of 
litigation, which is predictable and which has been estimated 
to add an additional $4 billion for health care product 
suppliers alone.
    Major health care systems in urban areas are finding that 
not only the problem has become complex as they try to become 
Y2K compliant, but that their initial budgets are woefully 
inadequate. One institution which had initially budgeted $40 
million has already spent $46 million, and they have not 
finished testing half of their systems. The overall costs are 
probably going to be well beyond $60 million for that one 
institution, and on and on it goes.
    However, we must not only think of the direct costs, but we 
have to think of the indirect costs of health care, and the 
consequences. These costs represent the loss of income tax 
revenues as the effort of many individuals and companies are 
focused not on improving efficiency or developing better 
services, but merely the effort to maintain the services at the 
level they existed prior to January 2000.
    It is with this in mind that we invite the committee to 
consider forming a special separate task force of technology 
experts with expertise in health care to evaluate and recommend 
potential actions which would lead to a more efficient process 
in that sector of the economy for the evaluation and the 
proposition of policies which could lead to an improvement in 
the way--in the compliance of the health care system under 
emergency conditions.
    The problems before us are really of very serious scope. No 
administration has ever had to deal with this before, and it is 
really a virtual plague which has really been thrust upon us 
inadvertently. Nonetheless, it does threaten our society. Never 
has a society been so betrayed by its own efforts to create a 
better quality of life for all its citizens. Failure in the 
health care field will be measured in terms of human suffering 
and the suffering of friends, family, neighbors, your 
constituents across America.
    We personally recognize the very extraordinary effort of 
this committee to address these issues and to address them in a 
timely manner. We understand that. We congratulate you, Mr. 
Chairman, and members of the committee. We are prepared to 
assist you and your best efforts with our best efforts and our 
thoughts in any way to resolve and avoid the difficulties 
inherent in not dealing with this problem.
    We will all be standing tall when these questions have been 
faced and resolved, God willing. But I would like to say that 
we thank you for the opportunity of bringing us here today to 
speak to these issues and to address the concerns which you 
obviously have for the people of America.
    Thank you.
    [The prepared statement of Ms. Heckler follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.062
    
    [GRAPHIC] [TIFF OMITTED] T1297.063
    
    [GRAPHIC] [TIFF OMITTED] T1297.064
    
    [GRAPHIC] [TIFF OMITTED] T1297.065
    
    [GRAPHIC] [TIFF OMITTED] T1297.066
    
    Mr. Horn. Well, we thank you very much for that thoughtful 
statement. We will write Mr. Koskinen this afternoon to suggest 
that idea. It is more appropriately done by the executive 
branch, and he has about 30, 35 working groups in a lot of 
these industrial areas.
    When we were in Cleveland, we had a witness from the 
Cleveland Clinic Foundation who noted that we do, and I think 
you referred to it, have a website nationwide where all of the 
emergency equipment in hospitals throughout the Nation can plug 
into that, with the manufacturer of the piece of equipment, the 
actual design number, so that not everybody has to reinvent the 
wheel, once the manufacturer tells you what type of substitute 
microchip you can have and so forth.
    So some of that, as you suggested in your own statements, 
is underway. But I think you're absolutely correct in terms of 
the great difficulty and the tremendous number of health care 
institutions and hospitals, and under different managements all 
over America, it is very difficult, especially in the smaller 
communities that you can see three members here come from 
originally, now that we live in urban America.
    We will now proceed with the next witness. We will save the 
questioning for later once you are all done. And the next 
witness is Mr. Michael Humphrey, the business director for 
telecommunications and information, Public Technology, Inc.
    Mr. Humphrey. Thank you, Mr. Chairman. Members of the 
committee, ladies and gentlemen, I would like to make a few 
brief comments, let you ask questions as you see appropriate.
    Just for the record, PTI was created in 1971 as the 
technology arm of the National Association of Counties, the 
National League of Cities and the International City/County 
Management Association. So we represent really local 
governments and their technological needs across the country.
    Mr. Horn. Was one of your offices at California State 
University Long Beach? There was a public technology group 
there.
    Mr. Humphrey. No. We have competition out there.
    One of the things that we discovered in last December was 
that a large number of local governments were not prepared for 
the year 2000 effort. We did a survey. We found something like 
57 percent of all city managers in towns and cities over the 
size of 2,500 did not think the Y2K problem was an issue.
    Because of that, our board of directors, which is composed 
of our sponsors I just mentioned, asked us to create a tool kit 
I am going to make available to you. It is a tool kit for 
really an awareness. This is a real serious problem, and it is 
a bit dated now, but I think you will find it useful. Also, 
most of that information is on our website, which is available.
    I want to talk just briefly about what local governments 
do, and I don't need to tell you this, but I think it is 
important to understand that almost all emergency services are 
delivered through local governments. The public safety 
answering points in this country are run by local governments; 
not FEMA, not the States, but local governments. And if 
electricity or dial tones fail, those organizations, they will 
not know where to dispatch citizen help. They will not know 
where to send ambulances, police or fire. And so it is 
extremely important to local governments to understand that the 
impact--potential impacts of Y2K are enormous and have grave, 
serious conflicts.
    Also local governments don't do a lot of glamorous things. 
They collect the garbage and treat wastewater, but these are 
all vital, important pieces of the infrastructure that we know 
of. We believe we can turn on the tap and get a drink of water 
out of the hydrant without fear generally of any sort of 
bacteria. However, most of these services are highly 
interdependent with local private industry.
    For instance, I mentioned electricity. Electricity is 
provided in about two-thirds of local governments by investor-
owned utilities; privately owned, investor-owned utilities. 
Much of the water systems are initially treated and gathered 
and presented to the local entity. Insurance companies rely 
upon police reports to be available and most of these reports 
are done through the use of computers. So, there is a terrific 
interdependence upon local government.
    The other point I wanted to make about that is local 
governments have the first obligation to respond to emergency 
situations. A friend of mine, Manny Garcia, in Miami-Dade was 
talking about the emergency management plan for the county and 
how they used it successfully with Andrew. When Andrew went 
through the south part of the county, they worked hard simply 
by pulling off the plan and executing the plan. They found 
things they had to redo and things that wouldn't work. But this 
is an important function of local government is to be prepared 
in case of problems either of their causing or of the 
organizations' in their communities causing.
    So what is the likelihood? Everybody wants to know the same 
thing. I hear the speakers this morning talk about what is the 
likelihood. I don't know, and I do not care, and it doesn't 
really make any difference, and neither does it make any 
difference for local governments. They have to be prepared to 
respond to the situations that are presented to them. And if 
they do not, we fail. Not just them; we fail. And our society's 
most vulnerable citizens are at risk.
    If it happens, ``it'' being some sort of Y2K event, I would 
argue that it is not going to be a localized event, it is going 
to be a widespread event. Take the issue of electricity. If we 
lose electricity in this country the way it is defined and 
created, the grid protects itself from shorts. It protects 
itself. It shuts itself down in case of disaster. The blackout 
in the Northeast many years ago was created by a $3 switch, 
which we have replaced by an embedded chip. But the point being 
that this huge infrastructure has not done this. We have not 
gone through this. We have not had this kind of an issue. And 
the recent ice storms in Montgomery County and elsewhere 
illustrate an interesting point. We sent men with bucket 
trucks, heavy-duty guys that split high-voltage wire. We are 
going to need people who understand what an embedded chip is. 
That is not those guys in those bucket trucks.
    Mr. Horn. I missed that last word. What was it?
    Mr. Humphrey. Bucket trucks, cherrypickers. Sorry. That is 
the Oklahoma vernacular.
    Mr. Horn. We have a lot of your citizens in California.
    Mr. Humphrey. I want to read one thing here. If an average 
person bought a modest amount of food and bottled water and 
withdrew cash and obtained flashlights, it is probably a good 
thing. But what happens if everyone does those in the final 
days of 1999? What would happen if I told you a really serious 
thing was going to happen, and then I told you it was likely to 
start happening January 1, 2000? Finally, what if I told you I 
was not confident that our government and our private 
institutions were prepared to handle it? What do you think 
would happen? I think I know what would happen. I see 
predictions of snow in the Washington area, and I realize 
suddenly that the ability to get bread, milk and videos is gone 
at that point.
    There are three things I would like to ask the committee. 
One was the chief administrative officer, Bruce Romer, for 
Montgomery County testified in front of the U.S. Senate Special 
Committee on the Year 2000 Technology Problem. I think you and 
Senator Bennett are the only two people doing things--I am only 
joking, but sometimes it seems that way. They proposed that the 
Federal Government help local entities develop regional 
capabilities.
    They did a test, as you know, on December 21st of last 
year. They proposed doing one regionally for this year, and 
then replicate that in the remaining 9 months across the 
country. They project that costs will be $7.3 million for the 
city or the regional areas and $1.5 billion across the country, 
and these are pretty bare minimum numbers, but they take care 
of overtimes and that sort of thing.
    The second thing I think important for the Federal 
Government, and I appreciate the position that Mr. Witt and 
FEMA are in in trying to deal with emergency problems, but the 
second real important issue is the Federal has assets that 
local governments could use, can help use. They are probably 
not going to be useful in a nationalized, mobilized way. They 
are probably going to be most useful locally. And in my 
prepared testimony I talk about the city of Albuquerque needing 
to get a commitment with the Army National Guard in case of no 
electricity so they can continue to provide electricity for 
their treatment plant, which is a very serious problem in 
Albuquerque.
    The third thing is there is kind of a feeling, a rosy, 
feel-good feeling about this problem from the Federal 
Government. It is an ``it can't happen here'' kind of syndrome, 
in my opinion. We don't want to panic people; therefore, we are 
not going to tell them bad news. The people in industry call it 
``happy talk.'' The Y2K people, some of which are here in this 
room, will talk about that as happy talk.
    I think the American people are very smart and savvy 
people. I think if you tell them the truth--we don't know, we 
don't know how big a problem it is, we don't know how big the 
risk is, we don't know what the situation is for them--I think 
they will respond to that. They have historically, and I think 
that would be the third thing is to project a position that I 
don't know, we don't know what the problem is, but we are 
working hard to fix our own systems. We are working hard to 
develop emergency management responses in case there are 
problems, but we need your help and your community to help 
resolve these issues. We need the American Red Cross, the 
volunteers, we need people in each community to come together 
to make that community a better place in case there are 
problems. That is the message. Thank you very much.
    Mr. Horn. Well, we thank you for that helpful statement, 
and in the question period we will get into some of the 
underlying things that does it happen at who's leadership 
level.
    [The prepared statement of Mr. Humphrey follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.067
    
    [GRAPHIC] [TIFF OMITTED] T1297.068
    
    [GRAPHIC] [TIFF OMITTED] T1297.069
    
    [GRAPHIC] [TIFF OMITTED] T1297.070
    
    [GRAPHIC] [TIFF OMITTED] T1297.071
    
    [GRAPHIC] [TIFF OMITTED] T1297.072
    
    [GRAPHIC] [TIFF OMITTED] T1297.073
    
    Mr. Horn. Dr. Morentz is next. Dr. James Morentz is 
president and chief executive officer of Essential 
Technologies, Inc. Welcome.
    Mr. Morentz. Thank you very much. I am going to start out a 
little bit differently than the prepared comments because I 
bring 25 years of experience in applying technologies to 
emergency management. As a result I would like to take a minute 
or two to offer a historical perspective on technology and 
emergencies and then draw on the confluence that exists today 
between traditional emergency management and the Y2K issues. 
Finally I'll point out both a gap and an opportunity in 
government preparedness.
    In 1975, when I finished my doctoral dissertation on 
managing a disaster in Africa and how communications technology 
affected that management, there was no emergency management 
field, and there certainly was nothing that would pass as a 
body of knowledge in technology applications to emergency 
management.
    In the past 25 years a lot has changed. IBM created a 
computer hardware standard that really energized an entire 
industry. Microsoft created new universal software standards 
for operating systems that allowed software companies for the 
first time to write commercial software because there were 
sufficient people that we knew we would not go out of business.
    FEMA was created and then recreated by James Lee Witt to 
provide professionalism and organization among emergency 
managers across the country. College programs grew, from George 
Washington University here in town, to the University of 
Wisconsin, to North Texas State University, all of which are 
now providing degree programs in emergency management.
    On the technology side, Jack Dangermond of Environmental 
Systems Research Institute really created the entire field of 
geographic information systems, an incredibly important 
component of crisis decision support.
    Satellite multispectral imagery arrived to help us 
understand the natural world around us far better than ever 
before, and the progression of communications has improved in 
ways that we only dreamed about. In the early days when amateur 
ham radio was the only form of wireless data transmission that 
existed, and even then with land line communications, modems 
limped along at 30 characters per second and really made the 
exchange of meaningful crisis management information 
impossible.
    Today, the Iridium satellite system that is about to be 
launched replaces with 3-pound devices entire suitcases of 
electronics, making response to a crisis faster, better, and 
more informed.
    And I would like to say out of my basement emerged the 
company that created the field of crisis management software 
that has now provided more than 10,000 systems to government 
and industry around the world that helped save lives, protect 
property, and preserve the environment.
    All of this is by way of reflection on the improvements and 
the people who make up emergency management and the technology 
that supports them. This is especially important today as we 
move toward the year 2000 when the Y2K problem poses a risk 
that all crisis planning and response organizations in 
government and the private sector should be attending to with 
commitment.
    To me, the most important thing that should be remembered 
about the Y2K risk is that it is really just the latest 
potential crisis. The consequences of Y2K failures are the same 
consequences we in the profession face every day. A utility 
outage can result from an ice storm as well as Y2K. Sewage 
treatment failures can result from floods as well as Y2K. Food 
shortages can result from hurricanes as well as Y2K. Disruption 
in the source of raw materials for manufacturing plants can 
result from earthquakes as well as Y2K. Failures in telephone 
systems can result from tornados as well as Y2K. And the 
shutdown of hospitals across an entire city can result from a 
terrorist releasing biological agents. Clearly the list could 
go on. But the emergency management profession has progressed 
significantly in our ability to handle crises just like the 
ones that may occur in Y2K in large part because of the broader 
uses of technology, the same root cause of Y2K, to improve the 
crisis management processes.
    At the same time these improvements in emergency management 
have been incremental and achieved only with struggle. As a 
result I would like to suggest that the Y2K problem is an event 
of distinction because it presents both the problem and an 
opportunity. Y2K is a marvelous confluence of a real-world 
problem that is predictable in its timing, probabilistic in its 
effects, and manageable by an in-place infrastructure much in 
need of focus that Y2K provides.
    The emergency management profession can bring much to bear 
on the management and the consequences of Y2K failures. The 
Congress and the administration need to provide that focus, 
first in government and then in the private sector, in order to 
maximize the ability of existing emergency management 
organizations to handle this problem.
    Now this is not a difficult task. It is a matter of 
continuing the policy the government started to be prepared for 
Y2K by extending it to include a reinforcement of the 
information infrastructure for Y2K and, therefore, for all of 
emergency management.
    Stated most directly, an in-place information system for 
managing crises has been evolving across the Federal, State and 
local governments in recent years. Y2K offers an opportunity to 
A, use, B, build on, and C, expand this system to provide a 
permanent resource for managing all hazards throughout the 
United States.
    The initiative that should be undertaken is to use both 
existing and new crisis management centers, linked by software 
that has already become the de facto standard for Federal 
Government emergency planning and response. The combination of 
operations centers with an information management system will 
provide government with an exceptional quickly implemented Y2K 
contingency management capability that can easily support the 
Federal response plan that you heard discussed by folks from 
FEMA earlier.
    At the present time there are a couple of Federal agencies, 
notably FEMA and the Coast Guard, that are beginning to look at 
the potential of what I am saying, the potential for creating 
rapidly stood-up crisis response centers focusing on Y2K, 
automating the emergency planning process, carrying out 
contingency plan tests in the coming months, deploying to every 
desktop across the Federal Government, and State and local 
governments an intelligence gathering tool that will help 
monitor the Y2K events as they unfold, and then to successfully 
managing the Y2K contingency response to any incident across 
the country.
    By providing a Y2K focus on crisis management, the effort 
expended in this particular problem will provide substantial 
benefits for overall crisis management to the Federal, State, 
and local governments for years to come in all types of 
natural, technological and terrorist weapons of mass 
destruction.
    To conclude, I think it would be helpful if we could just 
take 1 additional minute to give you a glimpse of the 
technology that can help manage the Y2K consequence management 
that is currently in use in quite a few Federal agencies, and 
if this actually works--yes, there we go. What you are seeing 
up on the screen [slide 2] is the software that is in use in 
about 5,000 licensees across the Federal Government. About half 
of the approximately 30 major contingency management centers 
for Y2K that need to be set up are using this software.
    Any contingency plan begins with the assessment of the 
potentially vulnerable infrastructure that is available in the 
system. Here [slide 3] you can see geographically shown the 
hospitals in the State of Washington vulnerable to Y2K 
failures. The product's next set of pages [slide 4] that focus 
on Y2K help to organize the contingency plan and operating 
procedures in a series of response scenarios, so in a sense we 
are, through the software, set to respond to a Y2K incident.
    What you see now on the screen [slide 5] is an Internet 
browser-based Y2K alert that every morning we are going to 
recommend, beginning in July, the companies and agencies that 
have this software have each of their individuals who have a 
computer log in to the Y2K alert. Every day there will be a 
changing message about Y2K informing them about an 
organization's response or about government's response or about 
the larger issues of Y2K. This provides good, positive, 
constructive information to this network of people who are 
beginning to think about Y2K and how we can all get prepared to 
deal with it starting in July.
    Then if something actually happens, there is a Y2K alert 
management system on the desktop of everybody in an 
organization, from the supply chain for making automobiles or 
to the Department of Energy here in the United States. And I 
maintain the first indication of Y2K failure will come from an 
administrative assistant's desk where they see the first 
indication of something odd happening, or at the plant floor, 
where the difficulty occurs. That gets entered, [slide 6] and 
that information then gets immediately transmitted back to a 
command center that focuses on Y2K in two respects: 
identification to see whether this, in fact, is a problem, and 
then what do we do about the consequences associated with that 
problem [slide 7].
    In the software that exists now, that gets translated into 
an operations log [slide 8] that then instantly gets translated 
into a contingency plan by the software [slide 9] that allows 
people to begin to respond to the emergency [slide 10].
    Thus we are drawing together using the very technologies 
that present us the Y2K problem, forcing them to be our 
solution to Y2K. All of this is available and ready to go with 
a tremendous number of licensees in the Federal, State, and 
local governments needing now simply a focus.
    I thank you for your attention.
    Mr. Horn. We thank you for that very helpful statement. I 
am sure we will have a lot of questions about it when we get to 
the Q&A.
    [The prepared statement of Mr. Morentz follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.074
    
    [GRAPHIC] [TIFF OMITTED] T1297.075
    
    [GRAPHIC] [TIFF OMITTED] T1297.076
    
    [GRAPHIC] [TIFF OMITTED] T1297.077
    
    [GRAPHIC] [TIFF OMITTED] T1297.078
    
    [GRAPHIC] [TIFF OMITTED] T1297.079
    
    [GRAPHIC] [TIFF OMITTED] T1297.080
    
    [GRAPHIC] [TIFF OMITTED] T1297.081
    
    [GRAPHIC] [TIFF OMITTED] T1297.082
    
    [GRAPHIC] [TIFF OMITTED] T1297.083
    
    [GRAPHIC] [TIFF OMITTED] T1297.084
    
    Mr. Horn. We now have our last panel witness Mrs. Phyllis 
Mann, the president-elect of the International Association of 
Emergency Managers. You might wish to tell us a little bit 
about the organization and then go on to your very helpful 
ideas.
    Ms. Mann. Thank you. The International Association of 
Emergency Managers represents 1,700 emergency managers both 
with local, State, Federal, military systems and across the 
world, not just in the United States. We are aggressively 
seeking emergency managers both through Italy, Australia, 
England and many other countries. Everyone cleaves to our 
organization because we are the one organization that will 
accept any and all emergency managers for their face value what 
they do at the local level.
    In emergency management--and, Chairman Horn, I will take 
you at your word today, we are going to have a family 
discussion here today. I am sorry Mr. Turner walked out because 
Mr. Turner is absolutely wrong. He should have been preparing 
his daddy with that generator, especially if his daddy lives in 
Texas. In Texas you never know what is going to happen, be it 
the boll weevil that is coming your way, or the storms that 
they have experienced, or the floods. So the very least I would 
do if my dad lived in Texas is not only buy him the generator, 
which I am sure Mr. Turner could afford to do, but I would 
teach my dad how to turn it on.
    And that is what is going on in the United States today. 
Same with you, Mrs. Biggert, is that here we--you are in 
Illinois. I would assume today in the back of your vehicle that 
transported you here to this meeting that you have an emergency 
kit in your car, and at the very least in your office you have 
comfortable shoes to wear just in case when we walk outside 
that door day that the wonderful weather that we are having 
turned to rain and then snow, and we had to slide along the 
city sidewalks.
    This is what we are seeing in our level of government. We 
are--and I am sorry I don't consider myself the lowest form of 
government. I always considered myself the highest form of 
government. You all are here to serve me.
    Mr. Horn. Let me hasten to say it was none of the Members 
of Congress that made that statement.
    Ms. Mann. I understand that. I truly understand that. But I 
did. I always looked at Federal Government as the agency that 
serves me as the local government. Here we go. This is our 
problem at the local level, and I made sure that in coming here 
today I articulated this to your staff because I can mince no 
words with this. I don't need another tool kit. I am tired of 
tool kits. I am tired of contingency plans. It is the local 
level in government that has all hazard planning. I am ready 
for any hazard that is hitting my community. We have plans. 
And, in fact, I was kind of chuckling to myself assuming that 
you all have found all these chips. Well, I have some doubt. I 
really have some doubt that you found them all. And so this is 
what we are doing at most local levels.
    I can tell you exactly where most emergency managers that 
are professionals will be on New Years Eve. We will be in our 
emergency operations centers just in case. We will have stood 
up our emergency operations centers somewhere between December 
27th and 29th. At that point, some of them are very 
sophisticated, like I am sure Ellis Stanley has in Los Angeles. 
It is a designated room with computers and generators and 
satellite radios. And obviously I am a ``wanna be,'' I would 
like all of that, but I live in Kitsap County, WA. I am a 1-
hour ferry ride away from Seattle. We are a peninsula. I know 
exactly what is going to happen during the Y2K transition in my 
community because it happens all the time when we have power 
outages. Whenever there is bad weather in the Northwest, 
peninsulas like mine do without. We do without power. We have 
experienced this frequently, and there is not one area of the 
United States who hasn't done without power.
    A good example of power disruption just because somebody 
punched into the line was in San Francisco just, what, a couple 
of months ago. Do you know that the only operating facility in 
downtown San Francisco was Nordstrom's? Now, for those of who 
you don't know what Nordstrom's is, it is a very sophisticated 
upscale shopping store. They were also not only able to check 
you out using manual systems, but their generator came on, and 
they could still make you a latte. There were very few----
    Mr. Horn. I sorry; I couldn't hear that.
    Ms. Mann. A latte, cappuccino. But that is what we are 
talking about when we are talking about any hazard that affects 
the public.
    Somebody here keeps talking about panic. I am sorry, we do 
anecdotal research. I have yet to see the scientific data on 
this, but here it goes. I have been an emergency manager since 
1991 paid by local government. I have, prior to that, been a 
volunteer with the American Red Cross, which I still am as a 
disaster volunteer and instructor. Would somebody please tell 
me where in the United States we panic when we have an 
emergency? I have yet to see panic. I have seen hungry people, 
I have seen people standing in line for their water, but I have 
yet to see people panic after a natural disaster. Y2K is the 
preparedness for the winter storm. If you are ready for the 
storm, you will be ready for Y2K. Why are we so afraid to tell 
the public let's get ready?
    One of the things that consistently is happening throughout 
the United States is this inconsistent message, and we heard it 
today. And our friends at FEMA are our partners in 
preparedness, but they had an opportunity today to say let's 
get ready just in case, but in between that sentence were 10 
other sentences that discounted the fact that we just don't 
know if we are going to be ready.
    So here it goes. If we told the American public today, 
let's get ready just in case, and let's just swag it, let's 
just use a good old standard 7 days in a natural disaster. We 
ask you to get ready independently for 3 days on your own, and 
that is because the 3 days is not for the citizen, it is for 
me. It is for me, the local government, to reconstitute myself. 
So if Y2K is going to be widespread, it is going to be 
intermittent disruptions throughout the communities, then the 
very least we should do is tell our citizens let's get ready 
for 7 days, and if you start buying your groceries today, and 
bought 1 extra day of food, that is all I am asking for your 
family. If you did this once a month, you will have 7 days of 
food by October. So then you would not have to worry if the 
video shop and the little ``Handy Andy'' was not open. You 
would have it there in your house.
    By all means you should have flashlights, for goodness 
sakes. We have power outages throughout the United States. You 
have should medicine. I am sorry for Mr. Turner. I do not 
recommend a 90-day supply either, but I think that every 
American who is on critical medication should always have 30 
days of medication on hand at any given time. So what is the 
difference? This is what I ask my citizens and especially my 
seniors: ``Why don't you have 30 days' worth of medicine on 
hand?'' And the answer is the insurance carriers will not allow 
it. They will not fund it. So we have a golden opportunity this 
year to say, all right, insurance carriers, let's get them 
ready. Let's get this 30 days' worth of medicine. What is wrong 
with 7 days' worth of food?
    And last but not least, I will tell you this: This is what 
I am doing about my financial records. In October, I am taking 
all of my 401(k)'s--they are not numerous--I am taking my 
401(k), my IRA, I am make taking my mortgage, although they 
could drop that one at any given time, I am taking any critical 
record I have from October November, and I am moving them to my 
safety deposit box in the bank because it happens to be a 
fireproof area. If I get deleted during the transition to Y2K--
and you and I both know you can get deleted any time, it is 
only a computer--then I am going to be able to reconstitute my 
life.
    In Kitsap County, WA, we are going to do the same service 
for our senior citizens. If they get deleted, if anything 
happens, we have trained caseworkers that will help our seniors 
reconstitute their life. We don't want them to panic, but they 
will if we do not give them straight information.
    So I will tell you this, Chairman Horn, if Washington, DC, 
cannot tell the American people how to prepare, then the 
International Association of Emergency Managers is about to. We 
are about to tell you how to get ready for 7 days. We are go to 
join our partners in preparedness with the Red Cross and lead 
you down the path, and what we think you should do here in 
Washington, DC, is join us.
    I will not--I repeat, I will not get on an airplane 
December 31st. I am paid to have common sense. I might just 
wait a couple of extra days just in case, and I think that that 
is what we all should be paying attention to: Just in case, 
let's get ready. Thank you.
    [The prepared statement of Ms. Mann follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.085
    
    [GRAPHIC] [TIFF OMITTED] T1297.086
    
    [GRAPHIC] [TIFF OMITTED] T1297.087
    
    [GRAPHIC] [TIFF OMITTED] T1297.088
    
    [GRAPHIC] [TIFF OMITTED] T1297.089
    
    [GRAPHIC] [TIFF OMITTED] T1297.090
    
    [GRAPHIC] [TIFF OMITTED] T1297.091
    
    [GRAPHIC] [TIFF OMITTED] T1297.092
    
    [GRAPHIC] [TIFF OMITTED] T1297.093
    
    [GRAPHIC] [TIFF OMITTED] T1297.094
    
    [GRAPHIC] [TIFF OMITTED] T1297.095
    
    [GRAPHIC] [TIFF OMITTED] T1297.096
    
    [GRAPHIC] [TIFF OMITTED] T1297.097
    
    [GRAPHIC] [TIFF OMITTED] T1297.098
    
    [GRAPHIC] [TIFF OMITTED] T1297.099
    
    [GRAPHIC] [TIFF OMITTED] T1297.100
    
    [GRAPHIC] [TIFF OMITTED] T1297.101
    
    [GRAPHIC] [TIFF OMITTED] T1297.102
    
    [GRAPHIC] [TIFF OMITTED] T1297.103
    
    [GRAPHIC] [TIFF OMITTED] T1297.104
    
    [GRAPHIC] [TIFF OMITTED] T1297.105
    
    [GRAPHIC] [TIFF OMITTED] T1297.106
    
    [GRAPHIC] [TIFF OMITTED] T1297.107
    
    [GRAPHIC] [TIFF OMITTED] T1297.108
    
    [GRAPHIC] [TIFF OMITTED] T1297.109
    
    [GRAPHIC] [TIFF OMITTED] T1297.110
    
    [GRAPHIC] [TIFF OMITTED] T1297.111
    
    [GRAPHIC] [TIFF OMITTED] T1297.112
    
    [GRAPHIC] [TIFF OMITTED] T1297.113
    
    [GRAPHIC] [TIFF OMITTED] T1297.114
    
    [GRAPHIC] [TIFF OMITTED] T1297.115
    
    [GRAPHIC] [TIFF OMITTED] T1297.116
    
    [GRAPHIC] [TIFF OMITTED] T1297.117
    
    [GRAPHIC] [TIFF OMITTED] T1297.118
    
    [GRAPHIC] [TIFF OMITTED] T1297.119
    
    Mr. Horn. Well, we thank you for your ideas. Now let's 
discuss them. Vice Chairman Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. I will start from 
the beginning.
    Ambassador Heckler, I think that you have, you know, 
developed a plan with the super website. Would that include or 
is there now someone who would be capable of really dealing in 
the human services and the hospitals that would have the 
technical ability to be able to take what came in from other 
hospitals, synthesize it, and come up with something that could 
be readily found? I think that would be the most important 
thing. That it is not just a website where everybody pours in, 
but to be able to put it into some means that would be 
synthesizing what had taken place.
    Ms. Heckler. This is why the administration would have to 
be conducted by someone with the medical expertise. But the 
chairman referred to the Cleveland Clinic, which is an 
outstanding institution. Many of the outstanding institutions 
are doing everything possible and doing a great deal, but is 
your county hospital in your own congressional district aware? 
There are so many different websites now that one could spend 
an age looking for the right information on a specific piece of 
equipment, for example.
    The need for the super health care website is simply 
pulling that together, and it would have to be administered. 
That is why I suggested it could be under the aegis of NHS or 
some designee of the Secretary of HHS, but the medical 
expertise would have to be there. The amount of testing that is 
going on now in the major institutions is revealing the 
weaknesses of the system, and there are weaknesses. Even with 
the certification, the embedded chips in so many medical 
devices can mean life or death if the wrong record is provided 
because the computer has crashed, the wrong person is treated, 
et cetera.
    The medical expertise is essential, and the delivery of the 
information through a sophisticated technological world-class 
group that can provide it immediately on the site, because the 
information has changed, and there is so many thousands of 
particular products, particular situations that need to be 
reported. So you are absolutely right, we have to have this.
    And I happen to sit on another--wearing another hat on a 
bank board, and I see in the bank on the audit committee, we 
are spending half the time of the committee on Y2K, on specific 
programs, and the financial institutions will be ready. But 
what we learned because there are regional collaborative 
arrangements from all the banks, and when a software package 
arrives with a flaw, and they do even though the manufacturer 
believes or the producer believes that it is perfect, they 
learn that it does not work at all, and then one bank will 
alert the producer, and the patches are put in, and every 
single software package has all of these patches so that you 
need both the medical expertise and the technological expertise 
to put this whole thing together in the right way.
    But there is not a lot of time. Dealing with your medical 
problems is simply not something you can prepare in the way 
that you can put your flashlights in the back seat of your car 
or have your stash of 30 days of food or 7 days of food. Your 
medical emergencies arise, and the technological credibility, 
the integrity of the system is under a most unusual threat. And 
that is why, frankly, dealing with this problem now is 
essential. We are late already, and there is no way the smaller 
hospitals will be able to cope so that it is necessary not 
merely to study the problem. We are past that. There are steps 
that can be placed, and it is combining those two.
    Mrs. Biggert. Mr. Humphrey, you pointed out about the 
services of local government, and you said that in your 
assessment of the interruption risks, that it was going to be a 
larger-scale problem probably than we would expect. And I think 
most of all of us are used to emergencies. I know in my State 
or in my hometown we had the local phone company and the wire--
we had an installation there, it burned to the ground, and in 
our town we were without any phone service for over a month, so 
people got pretty used to going down to the little phone booth 
that was the emergency phone booth that was set up. And 
fortunately it was about the time that cell phones really came 
into their own and certainly were increased a lot there. And 
that was a lot longer than we would expect an interruption of 
service.
    And what I think is the problem, or what I see is the 
perception is that something can fail in this, and we have no 
idea that will come back on. When you have a phone company and 
the wires burn down, you know that they are going to fix the 
wires, and they are going to be able to come in and actually 
reattach, connect the fiber optics and they will be able to 
solve that. But with Y2K, since we are not going to know what 
is going to happen until that actual date, that how long there 
will be some interruption in service, and I think that is the 
fear that people have, rather than just that it is another 
emergency, it is one step further.
    So, I guess that we need to know that the testing is so 
important, that things will work. But there still is that final 
hour when that turns over of what is actually going to happen. 
And I think that you are absolutely right to be prepared in 
every way we can, but I think that is why we have these 
hearings, to let people know that.
    Mr. Humphrey. I think that is the key point that the lady 
at the end makes, and that is that not knowing what is going to 
happen means that we have to be prepared. And emergency 
management people have to make sure that their emergency 
management plan has Y2K problems in it that they know what they 
are going to do.
    I was recently in Denver. Denver has dealt very well, I 
think, with the Y2K problem. But the one thing that they don't 
feel like they can do is provide warming shelters in the case 
of problems. They think that is a Red Cross problem. But the 
question I asked them, which they didn't necessarily want to 
hear, but I said, what happens if your nursing homes people 
begin to perish in your nursing homes? What are you going to 
do? And the point is they need to understand that. They need to 
understand what they are going to do, if anything. It may not 
be an appropriate role, but it is something that they have to 
consider, and it is hard, hard decisions to make.
    Mrs. Biggert. Thank you.
    Then going with that with Ms. Mann, I can understand that 
you don't want us to panic people, you don't want us--I think 
actually what we are doing is just the opposite, that we have 
held these hearings to let the American people know and to know 
that there are concrete things that can be done, and that is 
why we have had these hearings.
    You are absolutely right. I keep my boots most of the time, 
or I send one of my staff home to get my boots because I can't 
get out of the door. But there are emergency matters that you 
deal with and alternatives the way that you deal with the 
problem. But I think that what we don't want to have happen is 
that 3 days before this clock turns over, or 2 days or 1 day or 
at that time and say, well we have got a problem, let's just 
use our emergency measures, because that is not going to work, 
that we do have to be ahead.
    We have had airlines that have come in and said that their 
executives are going to be in the air on January 1st because 
they are confident that their systems are going to work. I 
don't think that I want to be in the air on January 1st either, 
but that is up to everybody. But I think that with the articles 
that we have seen in the paper, the more exposure that there is 
to this, that people will get ready and not panic and go out 
and try and buy the supplies, the flashlights, the last couple 
of days.
    So it concerns me that I think that this is what we have 
been trying to do, or that there have been articles about bank 
statements, making a copy of your bank statements ahead of time 
so that you have all of that because you may not be able to do 
that on that day. I think that you are right to be prepared, 
but I think that is what we are purporting to do here in these 
workshops and everything.
    Ms. Mann. At the same time though, and this is what we see 
at the local level, is that we take one step forward and two 
steps back. So, for instance--and I wasn't going to use this 
analogy, but I will today, it is in my bag, and I will show it 
to you at the break. I was at the beauty shop getting ready to 
come to Washington, DC, coloring my hair so that you couldn't 
see all the gray, and I was sitting there reading a travel 
magazine, which I never read. I enjoyed it because it was about 
millennium traveling and how you can go on a cruise ship and go 
here and go there and how the FAA says that everything is just 
A-OK. Then I go back to my office and then I open up my mail, 
and there is my Emergency Preparedness News, a very reliable 
piece of information that I receive on a monthly basis, and it 
is citing Chairman Horn, and he is talking about the FAA report 
card. And this is what is happening at the local level, the FAA 
report card was not an A. In the travel magazine it led us to 
believe that it was an A. And this is what the American people 
away from the Beltway are experiencing is this inconsistent 
messaging.
    So what I am saying is that there is nobody at the national 
level who is leading the preparedness charge. Mr. Koskinen and 
his team are doing a great job getting everybody ready with the 
infrastructure. At the same time we have not heard the 
President or the Vice President of the United States sitting 
down with the American public and saying, let's get ready just 
in case. We are a self-reliant system. We know that we have 
sustainable communities. That is the model of NACO is 
sustainable communities, but you at least have to tell them at 
a consistent messaging.
    And you are absolutely right, we don't want to panic 
people, and we certainly don't want them filling up their gas 
tanks on December 31st; but what is wrong with saying to the 
Nation, let's keep our gas tanks full from October on? I mean, 
those are the types of messages that we are talking about. 
There is nothing wrong with saying that just in case.
    But if you don't say it here--and all the hearings and all 
the task forces that you have going is for your infrastructure. 
This does not get out to the American public. I will tell you 
what gets out to the American public, and I consider this a 
national phenomenon that I think we should be studying. We 
couldn't get you ready for a hurricane because we see you 
shopping at the grocery stores as soon as the hurricane warning 
comes. And we couldn't get ready for a tornado. There they are 
stranded with nothing on their backs because they didn't do 
anything with their tornado kit. But for some reason Y2K is 
turning people on, and we are not seizing this opportunity. We 
are not making the direct connection between doing without--a 
potential doing without services and getting yourself prepared.
    The government--and I mean here in Washington, DC, I can't 
wait to see this, but I am going to tell you at the local level 
I am not there to give you a glass of water. I will make sure 
that water is available to you that you can go get, but if 
there is no water, then you will have to go get it yourself 
through a government system. But that is not what you want to 
do. Most Americans don't want to do this.
    So this is why I am saying, at your level here in 
Washington, DC, who is the national leader on Y2K? Who is 
telling the citizen--not the infrastructure, not the hospital, 
and not the utility, and certainly not me at local government--
to get ready? Who is out there telling them to get ready? And 
that is what I think we are missing is the national leadership 
and advocacy for the issue.
    Mr. Horn. If I might, if you would yield to me a minute or 
so, you are absolutely right. We have written the President. We 
have personally talked to him repeatedly, and said, you need to 
do a chat just like Franklin Roosevelt would have done, a 
fireside chat, and communicate with the American people about 
this, because otherwise you are going to have a real run on 
banks, and you will have nutty things done by nutty people that 
are trying to set the example of what they think is protection.
    I looked at every single journal that came into my office 
the last 2 months, and slowly we are getting awareness that 
there is a problem in just the last 2 months. Finally, tomato 
growers and everybody else, their magazines are starting to 
talk about Y2K.
    Senator Moynihan wrote the President many years ago and 
didn't get an answer. It took him about a year to answer me, 
and they finally appointed Mr. Koskinen in February 1998. We 
started our hearings in April 1996, and if we had been in the 
executive branch, we would have done it in 1989 when the Social 
Security Administration did it on their own. And I have cited 
the case many times, the Federal Highway Administration within 
the Department of Transportation, a very able woman programmer 
laid it all out for them in either 1987--in 1989, and they just 
laughed it off. And to show you how screwed up the Department 
of Transportation was and maybe still is, that idea and that 
problem never went up the hierarchy so that the Secretary could 
deal with it. And obviously in any room of the top 
administrators within Transportation, one of them is the 
Federal Aviation Agency, and that is what should have been 
done. It hasn't been.
    There has been very little leadership in the executive 
branch. Mr. Koskinen is doing the best he can, but the 
President of the United States any time he wants can get 
airtime, TV time, radio time, you call it. When he finally held 
his first meeting, he asked me to send him a few words and 
paragraphs, which I did. It was before the National Academy of 
Sciences. Well, they are the last people in the country you 
need to reach to because they know all about it, and they are 
scientists, and they are experts on computing and all the rest.
    It was a good speech. Then when was the next one? The next 
one he got, oh, just 2 months ago maybe he declared that Social 
Security was OK. Well, we declared that from the beginning. We 
were giving them As, A-pluses, so forth. And our report cards 
did show that Social Security was the first to clear the decks, 
if you will, in their computers so that they would function, 
and there would be--of the 43 million customers and perhaps 50 
million checks that pour out, there would be no problem with 
Social Security.
    Then we found the Financial Management Service of the 
Department of the Treasury, they were not conforming, so we 
worked with people, goading them on. The legislative branch is 
simply an oversight branch. Our Majority Leader will be 
preparing kits for every Member of Congress so that when they 
go home, they will be able to understand these issues, and, of 
course, if 435 Members can at least hold one town meeting 
somewhere in their district, some of that word will be out.
    But you are absolutely right. This is an executive branch 
problem. They have never run with it. They sort of--I call them 
the Perils of Pauline. You know, Pauline--you would have to be 
my age to understand that.
    Ms. Mann. I may not be your age, but I like television.
    Mr. Horn. She is strapped on the tracks with ropes, and the 
train is coming and all of that at the Saturday flicks in 
Hollister, CA. The next thing somehow she would escape from the 
ropes, and she is OK. But that is what it was, tremendous 
procrastination in the executive branch. They should have taken 
this from day one and educated people.
    Without question, the FEMA operation, which is basically 
very well run, and your local emergency manager counterparts, 
that is where the information is going to have to come. And 
there is no magic bullet out of money from the Federal 
Treasury. We cannot even fund anything around here because of 
the caps that have been placed on it. And with the demagoguery 
going on by the administration and the Democratic leader in the 
Senate on what you have to do with the surplus, there is no 
money for anything else. It will all go into Social Security. 
And we will do just what they want, only we are going to do it 
better. If they want 62 percent in Social Security, we are 
going to put 100 percent in, et cetera. So there is not any 
loose change around here. But the communication can be done by 
your counterparts.
    Ms. Mann. And I think that was one of the things that 
decided--made the decision for me to be here today is that at 
the end of these 2 days, at the very least what we should do is 
decide on a national consistent message that we keep pushing 
out and we don't deter from that message. This is why people 
and the Red Cross, when they teamed up many years ago and came 
out with one citizen message, how to prepare a citizen for any 
emergency or disaster, the 3-day kits, et cetera, that is what 
we are going to do.
    I would like to comment on the Social Security because I 
work very closely with our local Social Security. When he said 
he got an A on his report card, and I naively asked him what 
did the Post Office get? Despite everything else, I think 
that--you think that everybody is going to wire transfer? But a 
few people still get their Social Security checks--that are 
delivered by the Post Office. What kind of grade did they get?
    Mr. Horn. They didn't get a very good one. If it wasn't so 
sad, it would be laughable. But when we were grading all the 24 
Cabinets and independent agencies, one of the questions we 
asked from the beginning was what is your contingency plan? 
With many of them it was the Post Office, because if you 
couldn't get the checks cut and sent by electronic mail, which 
is our legislation, and we think it ought to be done that way, 
but you are right, there are a few people who say, I want to 
feel that check, well, it is too bad because people rob them of 
their checks, and if they went directly into their bank 
deposit, one, it would be there, and, two, several days you 
could use that money ahead--between getting the check in the 
Post Office, walking down to deposit the check and all of that.
    But you can't change some people. And I understand that. I 
grew up in the Depression. I know what my mother would have 
wanted. She wanted to see that check, too, because we almost 
lost our house in the Depression, and we lost everything else, 
but our house was firm. So people that have gone through that 
experience don't trust banks, don't trust government, and you 
can understand why.
    Ms. Mann. Absolutely.
    Mr. Horn. So we have got to educate them. Everybody we have 
been in our six field hearings in August in Indianapolis and 
Cleveland and Chicago and New Orleans and Dallas and so forth, 
we made the point, look, it would be prudent to have a month or 
2 months of supplies of food that are edible, and if you don't 
have the gas, you don't have the electricity, or whatever it 
is, you are going to have to get some way to cook, which there 
are ways as you know, sterno and others, and try to get the 
food warm. You will not have your refrigerator working and so 
forth.
    So we have tried to be prudent, not getting headlines. We 
had one once in a while a few years ago where they talked about 
planes dropping from skies. That is nonsense. The fact is the 
administrator, who is a very able person, has had to play 
catch-up because, again, her staff let her down once she was 
confirmed, so they are playing catch-up. I think they will be 
OK. The administrator of FAA has the authority under the law to 
ground planes any time of night or day for safety. As you know, 
most of us do not take off in the East and land in the West 
unless they are very sure we have got a spot to come right in 
and not go circling around the cities, which we have done 
around Chicago for years, and you shoot right into Los Angeles. 
If you leave Dulles, you know you will be there X hours and 
minutes and seconds away.
    So it is an executive job, and we are going to bring in a 
proposal for an Office of Management, which is what the 
President needs. This is a management problem, not a technical 
problem. I mean, techies can work on it, but somebody has got 
to lay it out and say, ``hey, this is what we have to do in 
this time period.'' And what we finally did, just by a series 
of hearings, is shock them into a little action. But, again, 
the President has to communicate it, and he hasn't done a very 
good job at it.
    Ms. Mann. Well, then I think we are here in Washington, DC, 
this week to help him. Because one of the things that we can 
do, which would be so simple nationwide since you already do a 
report card, we can do a monthly preparedness checklist that 
every citizen gets, nationwide. It is printed in the paper, 
just like you do your report card, and it becomes part of the 
press release packet.
    Mr. Horn. Right. And we have urged--when we went to these 
various cities, we urged city managers and others, if you have 
a public utility--in the case of Long Beach, they have their 
own water company and gas company and so forth within the city 
government, on the bill, just--but a whole list of things you 
ought to be prepared to do. That communicates with a lot of 
people. Ballots that go out, the registrars could put these 
things in at the county level, in our case, in California.
    So there is a lot of ways to reach people. And, of course, 
you are going to get tired of reaching them and think they 
know, but when you are tired is when you start over again.
    Ms. Mann. Exactly.
    Mr. Horn. And you are just getting there, and I think your 
counterparts can do a lot of good here to make up for the 
vacuum on the executive side of the Federal Government, and we 
will be glad to give you all the help we can.
    Mr. Humphrey, I do want to put that ``Y2K and You'' in this 
hearing record, if it is not a problem for your people, and we 
ought to have cross-references on the websites of where people 
can download it and all the rest of it, which would be 
worthwhile.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1297.120
    
    [GRAPHIC] [TIFF OMITTED] T1297.121
    
    [GRAPHIC] [TIFF OMITTED] T1297.122
    
    [GRAPHIC] [TIFF OMITTED] T1297.123
    
    [GRAPHIC] [TIFF OMITTED] T1297.124
    
    [GRAPHIC] [TIFF OMITTED] T1297.125
    
    [GRAPHIC] [TIFF OMITTED] T1297.126
    
    [GRAPHIC] [TIFF OMITTED] T1297.127
    
    [GRAPHIC] [TIFF OMITTED] T1297.128
    
    [GRAPHIC] [TIFF OMITTED] T1297.129
    
    [GRAPHIC] [TIFF OMITTED] T1297.130
    
    [GRAPHIC] [TIFF OMITTED] T1297.131
    
    [GRAPHIC] [TIFF OMITTED] T1297.132
    
    [GRAPHIC] [TIFF OMITTED] T1297.133
    
    [GRAPHIC] [TIFF OMITTED] T1297.134
    
    [GRAPHIC] [TIFF OMITTED] T1297.135
    
    [GRAPHIC] [TIFF OMITTED] T1297.136
    
    [GRAPHIC] [TIFF OMITTED] T1297.137
    
    [GRAPHIC] [TIFF OMITTED] T1297.138
    
    [GRAPHIC] [TIFF OMITTED] T1297.139
    
    [GRAPHIC] [TIFF OMITTED] T1297.140
    
    [GRAPHIC] [TIFF OMITTED] T1297.141
    
    [GRAPHIC] [TIFF OMITTED] T1297.142
    
    [GRAPHIC] [TIFF OMITTED] T1297.143
    
    [GRAPHIC] [TIFF OMITTED] T1297.144
    
    [GRAPHIC] [TIFF OMITTED] T1297.145
    
    [GRAPHIC] [TIFF OMITTED] T1297.146
    
    [GRAPHIC] [TIFF OMITTED] T1297.147
    
    [GRAPHIC] [TIFF OMITTED] T1297.148
    
    [GRAPHIC] [TIFF OMITTED] T1297.149
    
    [GRAPHIC] [TIFF OMITTED] T1297.150
    
    [GRAPHIC] [TIFF OMITTED] T1297.151
    
    [GRAPHIC] [TIFF OMITTED] T1297.152
    
    [GRAPHIC] [TIFF OMITTED] T1297.153
    
    [GRAPHIC] [TIFF OMITTED] T1297.154
    
    [GRAPHIC] [TIFF OMITTED] T1297.155
    
    [GRAPHIC] [TIFF OMITTED] T1297.156
    
    [GRAPHIC] [TIFF OMITTED] T1297.157
    
    Mr. Horn. I am sorry to take more than a minute, so go 
ahead.
    Mrs. Biggert. You are yielding back to me now?
    Mr. Horn. Yes, yes. Go to it.
    Mrs. Biggert. Thank you, Ms. Mann. I think that your 
enthusiasm and what you have to say will really carry this 
forward, too, so we appreciate you being here. With the 
enthusiasm and the dedication that you have for this problem, I 
think that it will move forward.
    Just, Dr. Morentz, is the emergency management community 
taking advantage of the products and services that you have 
talked about, the technological products that will move us 
forward in this?
    Mr. Morentz. Yes, I would say, by and large, there has been 
good movement over the last decade in emergency management 
organization embracing technology. The Federal Emergency 
Management Agency has been good--although they were prodded by 
about 30 of the States that had adopted automated systems 
before FEMA actually made the embrace of technology as broadly 
as they have. But since then, a couple of years ago, they have 
done a very good job as has the Army National Guard; and the 
Air National Guard and the Air Force at the Federal level have 
done very good jobs in starting to establish an infrastructure.
    The point of this confluence between that incremental 
movement that has been taking place to improve emergency 
management and the Y2K opportunity is one that really deserves 
attention to be able to get everyone to focus on the Y2K, thus 
moving Y2K from a potential disaster into a routine emergency. 
Whatever happens, at the same time, we will have created an 
infrastructure that will survive January 1, 2000, and for many 
years.
    Mrs. Biggert. Do you see that there is really a difference 
in the type of emergency that could be created by the Y2K and 
other emergencies?
    Mr. Morentz. You know, I really don't see it as 
distinctive. I think, as you have heard from local government 
representatives and others, we have done--particularly in the 
United States, we are an infrastructure-rich country, and when 
a hospital experiences a problem, there are other hospitals 
generally within an area to take critical patients. But the 
idea is that if the organization doesn't know the plan and have 
procedures in order to get accident victims to an alternate 
hospital, then it becomes a disaster. So, truly, it is the 
application of the technology to drive the contingency planning 
and put in place a command and control system for alternatives 
that is really the potential missing link here.
    Mrs. Biggert. So you would say that the existing 
information systems and data bases can be used to better 
prepare the citizens and the public sectors for emergencies, or 
do we need something beyond that?
    Mr. Morentz. No. Really, the standard things that are being 
done to plan for any type of a disaster are exactly what you 
need for contingency planning for emergency management for Y2K. 
It is a matter of applying them, focusing on them and making 
certain that they are, in fact, widely available, rather than 
more narrowly available, as is the case today.
    Mrs. Biggert. OK. What would be, do you think, the most 
difficult technological challenge for emergency management in 
the 21st century?
    Mr. Morentz. Well, clearly, the advantages that we are 
seeing in technology with small telecommunicating devices 
provide such an abundance of opportunity for the emergency 
management community. I think the biggest thing that is going 
to take place is the implementation of that inside a 
consistent--both policy, program and infrastructure, to drive 
the technologies out to the places where they are needed. You 
have heard about Kitsap County over here.
    The key is to be able to make those technologies available. 
The private sector is doing its part by creating the 
technologies, driving the prices down to where they become 
incredibly affordable, but what still is missing is an ability 
within the State, Federal and local governments to actually 
make these part and parcel of what every emergency program 
does.
    Mrs. Biggert. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Humphrey. Mr. Chairman, just one quick point I wanted 
to make, and that was the need for resources and assets at the 
local level. I will give you some quick examples of that.
    Aircraft carriers that normally dock in the Norfolk area 
generate enormous amounts of electricity. They have great 
capacity. Now is the time to see if, in fact, they can support 
those seven communities of that area in some way or another. 
Maybe there is some ways in which they could provide warming 
facilities should it be needed; maybe they could provide food 
stores.
    I mean, there are lots of different ideas. I certainly 
don't have a lock on them. But I think we have to think out of 
the box, and we have to come up with ideas that, in the case of 
disaster, we have a plan to deal with them. This, in deference 
a little bit to my colleague, this is really different in the 
sense that it is going to look normal. Everything is going to 
look fine. It just may not work or it may not work correctly. 
And so it is going to be a different psychological response. It 
is going to be a different kind of need. We have to prepare; 
but the question is, how should we prepare and what kinds of 
contingencies and can they make commitments to do that? That is 
why I say, I bring up the Navy, that example, the National 
Guard in Albuquerque. There are resources and assets which can 
help citizens of this country in specific ways.
    My colleague was pointing out traffic lights. We don't 
think about traffic lights, but being many traffic lights are 
controlled by the timing mechanisms of embedded chips and all 
of them, some of them, have mechanical wheels that turn but 
others are controlled by embedded chips, and local governments 
have to figure out which is which and what to do with them. I 
mean, there are little things like that, that this is going to 
be a, really, a different issue.
    Thank you.
    Mr. Horn. Well, you are absolutely correct. We have 
stressed that every hearing we have had in the field when we 
have had city managers and mayors with us on fire equipment, 
traffic lights, all the rest.
    Ms. Heckler. Mr. Chairman, I wondered if you would be 
willing to allow my colleague, Dr. Gerschel, to say something.
    Mr. Horn. I was going to ask him, yes.
    Ms. Heckler. Because this medical problem is unique.
    Mr. Gerschel. Mr. Chairman, my level of expertise is 
perhaps not as great and as long as the others, but I come from 
a somewhat different perspective. We spoke just now of issues 
of traffic lights. In conversation, candid conversations, with 
some city managers in the area in which I live, they have 
basically come to the conclusion there is not enough time. 
There is time to take care perhaps, and I say perhaps of waste 
management because we are not going to know until the end, 
perhaps of water supply. Certainly they are concerned about the 
electrical supply and the electrical grid, but they have come 
to the conclusion there is not enough time and not enough money 
to take care of traffic lights in the time that remains.
    Now, in terms of medical situations, well, traffic lights 
aren't part of the hospital, but the accidents that take place 
thereafter probably will be or, hopefully, won't be. But in 
terms of specific medical issues, and perhaps in addressing 
Congressman Biggert's question, what we have found in major 
institutions in the testing that we have seen and done and 
reported and what we have put on these websites is that we will 
get a notification that a piece of equipment or a piece of 
hardware is, in fact, compliant. Well, that is only partly 
true. It is compliant, if it has been built, let's say, past 
1997, but something, bearing the same model number but a 
different set of chips, will not be compliant, and we are 
testing a lot of materials that way, and we are posting that on 
these sites.
    The suggestion that Ambassador Heckler has made is to take 
that data of specific testing where it is not only just a model 
number but a serial number as well in a production run of 
material so that county hospitals, municipal hospitals that 
don't have really the wherewithall and the time to test it, 
collecting that data into this super site, medical health care 
super site.
    We know that is a problem, we know it is an issue, we know 
that it takes a little time and effort, but that could save a 
lot of time, effort and energy on the local level, make 
expertise available to them that they might not be able to get 
initially or easily.
    Mr. Horn. That is well said, Dr. Gerschel, and I want to 
thank you for all you are doing in helping this matter.
    I thank all of the panelists. I would like to ask now for 
those that are in the audience on the emergency management 
workshop participants, why don't you just stand so we can see 
how many of you are out there, just stand, who is going to 
participate this afternoon and tomorrow.
    Good. Thank you for coming. We are honored to have you here 
as experts on emergency management, and I am gratified that you 
would give your time and your resources to be in Washington 
today. I know that among you are emergency management experts 
from my own home State of California, as well as Florida, 
Massachusetts, Georgia, Colorado, New York, Montgomery County, 
MD, Virginia, and the State of Washington, of course. And those 
from the National Defense University, they are also interested 
in this subject. We thank all of you.
    With so much attention that is being given to the year 2000 
computer problem, it is a remarkable coincidence that 
altogether you have about 2,000 years of experience in hundreds 
of natural and man-caused disasters among all of you. This 
includes floods and hurricanes and wildfires and earthquakes 
and toxic spills, snow, ice storms, all the rest, cyber 
attacks--thank heaven, we haven't had too many of those--and 
chemical and biological terrorism. We have had some fake ones 
now, and let's hope that we don't have the real ones. We are 
looking forward to meeting all of you in the workshop group as 
you discuss and formulate these things.
    I also want to recognize a longtime friend of mine, if he 
is in the room, Dr. Robert Chartrand. Do you want to stand up? 
Oh, there you are, OK.
    Bob and I have worked together for 3\1/2\ decades. When I 
brought together the senior staff in the Senate in the mid-
1960's to computerize the Senate with the major offices, as I 
was assistant to the Republican whip, Mr. Kuchel in California, 
and then we had the New York senators and we had the Illinois 
senators, where Senator Dirksen was from, and we believed in 
the concept of, I think the Washington Post called it Dial-A-
Bill, because we were just tired of our staff having to pick up 
the phone every day, find the status on this, who has 
testified. It was obvious it was something we could 
computerize.
    When I went to Brookings I had a dinner of about 100 from 
the Hill and staff and Members and one rather crusty chairman, 
which will go unnamed, but many of you might know, sat 
listening and said, ``well,'' and chomped on his cigar, ``all I 
can say is you are going to do that over my dead body.'' And it 
took a long time to get computing anywhere around here that 
would help. But Bob Chartrand has certainly been in the 
forefront of that; and we thank you, Bob, and all of your 
associates here.
    As I understand it, you are divided into four groups, each 
one of us has chosen a group to work with, and the full 
particulars are found in the material you were given as you 
entered the hearing room. My charge to you is very simple. 
Within the scope of your workshop group, evaluate current 
emergency management efforts, propose solutions, products and 
systems that will meet the challenges of the 21st century. You 
are all visionaries just by being in this business, but you are 
also practical people, and that is where it is very important 
to bring both of those values together. I look forward to 
receiving your recommendations tomorrow when we reconvene, and 
we plan to feature these in the upcoming committee print. Your 
group leaders will meet with you at their designated places in 
the hearing room. I hear there are signs with workshop group 
names being posted at four locations in this hearing room. So 
thank you all for coming.
    I would like to thank the following people for the record: 
J. Russell George, staff director and chief counsel for the 
subcommittee; Bonnie Heald, director of communications of the 
subcommittee; Harrison Fox, professional staff member for the 
subcommittee;
Mason Alinger, our clerk; and interns Kacey Baker and Richard 
Lukas. Also, Faith Weiss, minority counsel; Jean Gosa, minority 
clerk; and our court reporters today, Cindy Sebo, Joe 
Strickland, and Julie Bryan.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]


</pre></body></html>
